<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                         FRIDAY, MARCH 30, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu and Allard.

                              U.S. SENATE

                    Sergeant at Arms and Doorkeeper

STATEMENT OF HON. TERRANCE W. GAINER, SENATE SERGEANT 
            AT ARMS; CHAIRMAN, U.S. CAPITOL POLICE 
            BOARD
ACCOMPANIED BY:
        DREW WILLISON, DEPUTY SERGEANT AT ARMS
        CARL HOECKER, INSPECTOR GENERAL

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Good morning. Our subcommittee will come 
to order. We have a routine but important subcommittee meeting 
this morning to review the budgets for the Senate Sergeant at 
Arms, the U.S. Capitol Police Board and the Capitol Police. We 
welcome our witnesses to the subcommittee and I thank Senator 
Allard for joining us. I look forward to working with Senator 
Allard on this subcommittee, as he chaired it for several 
years, and is very interested in the subjects that we will be 
discussing this morning. So let me welcome you all.
    We meet this morning to take testimony on the fiscal year 
2008 budget request, as I said, for the Sergeant at Arms and 
Doorkeeper of the Senate, which is his official name and the 
United States Capitol Police.
    I would like to welcome Terry Gainer who joins us today to 
testify on behalf of the budget. I'd also like to acknowledge 
and welcome his Deputy Sergeant at Arms, Drew Willison. I had 
the pleasure of working with Drew previously when he was the 
clerk of the Energy and Water Subcommittee and I always found 
him to be direct and efficient and I appreciate his work here.
    Our second witness is Phillip Morse, Chief of the U.S. 
Capitol Police. I welcome you Chief. Thank you for coming to my 
office and visiting with me earlier this week. This is a fairly 
new position for you and I believe you were sworn in 5 months 
ago today. So you're getting your head and hands around the 
challenges before us. I look forward to hearing your vision and 
your priorities for the Department.
    The 2008 budget request for the Sergeant at Arms totals 
$227 million, which is $28 million or 14 percent above the 
current year. This request includes funding for 19 additional 
full-time employees, which appears to be needed largely to fill 
technology-related positions. The increase in your expense 
budget of nearly 17 percent also seems to be technologically 
driven. Several of my questions will address this particular 
increase.
    The Capitol Police budget request for 2008 totals $299 
million, which is $43.5 million or 17 percent above the current 
year. This request includes funding for 20 additional civilian 
employees and supports the current force of 1,671 sworn 
officers, which is quite a large force.
    I hope you will update the subcommittee on the need for 
these extra civilian positions, Chief. While your salary budget 
shows an increase of 9 percent, your expense request has 
increased by over 60 percent. This is a pretty substantial 
increase and I look forward to discussing this with you and the 
priorities you have outlined in this area.
    As I've said in previous hearings and it bears repeating 
that I doubt the subcommittee will have the resources available 
to provide double digit increases for all of our entities. 
Therefore, at some point in the near future we're going to have 
to have some serious discussions with you and your staff about 
what are the most urgent priorities as we try to continue our 
push for safety, additional safety in the Capitol, but 
recognizing there are some budget constraints here.
    In closing, I'd like to acknowledge all the good work by 
the employees of your staffs. I know they are working hard to 
get some of our things in order and I'm sure you're both very 
proud of what they are doing to help you. So I'd like to now 
turn to my friend and ranking member Senator Allard for his 
opening remarks.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Madam Chairman and I look 
forward to working with you on this budget. I thank you for 
convening this hearing. I appreciate that. I am pleased to see 
Sergeant at Arms Terry Gainer and Chief Phil Morse this morning 
and congratulations to both of you on your new positions. I 
look forward to working with both of you. I appreciate the work 
you and the men and women who work for you--the work that they 
do--the officers who protect the Capitol complex, the Sergeant 
at Arms employees who ensure our mail is safe, the folks who 
develop emergency plans, the doorkeepers, the phone operators, 
technology specialists and many others who I haven't mentioned 
who ensure everything runs smoothly in the Senate. I'm one 
Member of the Senate who really appreciates all your efforts.
    This morning I will have a number of questions including 
one about the Sergeant at Arms request for additional staffing. 
Madam Chairman, I've talked about this in the Sergeant at Arms 
hearings in the past 2 years. If this year's request is 
approved, the Sergeant at Arms will have grown by 25 percent 
since 2001.
    With respect to the Capitol Police, I am pleased that we 
now have a permanent Chief on board as well as an inspector 
general. There are many challenges ahead for the Chief 
including the need to get the administrative side of the House 
in order, as well as control overtime spending and ensure that 
officers are deployed effectively and according to a rigorous 
threat assessment.
    Several studies and reviews of Capitol Police officer 
staffing have been undertaken or are underway to ensure 
appropriate protocols for staffing. Unfortunately, there does 
not seem to be a lot of coordination amongst these various 
staffing analyses. Unfortunately, we need to see a firm plan 
for appropriate risk-based staffing of posts and the most 
effective use of additional duty hours. I would like to see 
this brought to closure over the next couple of months.
    Let me also say that we were shocked last September when a 
deranged intruder managed to breach several checkpoints and 
gain access to the Capitol. This was a wake-up call. I look to 
Capitol Police leadership and we want to be confident that such 
an occurrence could never happen again.
    I would note that the Capitol Police are requesting a very 
large increase in civilian staffing, 30 additional employees. 
This would result in more than a 100-percent increase in 
civilian staffing since 2001. With that in mind, there should 
be no reason that very serious management problems identified 
by the Government Accountability Office (GAO) could not be 
resolved.
    I have been working with a lot of the other agencies on the 
executive branch side about bringing accountability to their 
budget process. As you may be aware of, there is a process we 
apply to the executive branch that we do not apply to 
legislative branch agencies. I'm one that feels that what we 
require of the rest of Government, we ought to require of the 
legislative branch.
    So this GAO report that has come out has me concerned. I 
think there are some very serious statements in this GAO report 
about financial management operations and what I see, Madam 
Chairman, is that we need to emphasize particularly to the 
Chief of Police and those that are under him, the importance of 
putting together an accountable budget, one that identifies 
goals and objectives that are measurable and then tie the 
budget into those.
    I noticed in the last several years, I've been authorizing 
a lot of reprogramming of dollars. What that tells me is, we're 
not doing a very good job of programming the money. Chief 
Morse, this is a problem you've inherited. I hope you can begin 
to really focus on what it is going to take and if you have to 
work with GAO or Mr. Gainer with his past experience in the 
Department, to improve accountability and financial management.
    You can expect me to be diligent in asking for 
accountability on some of these issues. I want you to 
understand that it is because I feel we have to do a little 
better job in the legislative branch of holding our own 
agencies accountable. Thank you, Madam Chairman.
    Senator Landrieu. Thank you and let me say to my ranking 
member that I share those goals and objectives and I don't 
think the legislative branch should be held out in any other 
standard than we hold the other agencies that we have 
jurisdiction over. So I look forward to working with you in a 
cooperative way to get to the goals and objectives that we can 
have the best police force and best security for the Capitol, 
not just for those of us that work here and call this our 
workplace, but most importantly, for the millions of people 
that visit here and call this place the People's House. It is 
very important that we keep that in mind. So with that, Mr. 
Gainer would you like to begin your testimony?

                    STATEMENT OF TERRANCE W. GAINER

    Mr. Gainer. Thank you, Madam Chair and members of the 
subcommittee, thank you for allowing me to testify here today, 
and I ask to submit for the record my written testimony. I 
would also like to make a few brief comments about the efforts 
of the men and women of the Sergeant at Arms Office and our 
budget and then quickly segue into my role as Chairman of the 
Police Board.
    This marks the 12th time I have presented a budget for an 
organization for which I have been responsible--seven times as 
the director of the Illinois State Police, four times as the 
Chief of the Capitol Police and now as the new Senate Sergeant 
at Arms.
    Each time increases were requested, each time I struggled 
with my own team to request only what was needed to be 
successful at our core business. While need might be in the eye 
of the beholder I have not employed the tactic where one sets a 
high mark, figuring that the give and take of the budget 
process yields a mutually agreeable number which leaves all 
participants satisfied.
    At the same time, I have never received all that I 
requested, nor have I ever been able to submit a request for a 
flat budget. In all cases, however, in all those organizations, 
the operations of the organization continue to be professional.
    On several occasions, I have begun a budget year knowing 
the organization could not be as cutting edge as possible, for 
projects might take longer, service might not be as perfect as 
professionals expect, yet the organizations always survive.
    This Sergeant at Arms budget regretfully is no different 
than those I have presented for other organizations. We are 
requesting more, as you've indicated, practically 14 percent 
more, to nearly $227 million. The personnel increases, by most 
measures, are modest. We respectfully request 19 additional 
FTEs. In total, a 13.9-percent increase is sizable. I am fully 
aware of this as I sit here today with a Chief who is also 
requesting a considerable increase, and we are not the only 
ones asking you for more. I wish it weren't so.
    Madam Chair and members of this subcommittee, the men and 
women of the Senate Sergeant at Arms Office and the wonderful 
team at the United States Capitol Police are here for one 
single purpose. We keep the doors of this powerful institution 
open for business, facilitating the ability of the people you 
serve to come and go freely.
    If we are not successful, it would be difficult for the 
Senate to be successful. Including telephones, computers, 
pages, doorkeepers, the media galleries, parking, the photo 
studio, technology development, the post office, police 
operations, emergency preparedness, recording studio, EAP, 
environmental services, hair care, nationwide support of your 
State offices, the cabinet shop, information technology, 
education and the training of your staff, services to your 
families, printing and graphics and direct mail, the help desk 
and the wonderful professionals at the appointment desk, I 
think we do it all. The team does it right 24 hours a day, 7 
days a week, and we like our work.
    Our strategic plan, completed by Bill Pickle, my 
predecessor, just months ago is straightforward in its vision: 
exceptional public service. Our mission is straightforward: 
operational, security and protocol support services to the 
United States Senate.
    In concluding this portion of my remarks, let me say thank 
you again for the support of the subcommittee. Working with 
your staff is helpful and productive. Our partnership with the 
Secretary of the Senate and the Architect of the Capitol (AOC) 
are essential to achieving excellence.
    Now if I can just move quickly to the second half of my 
brief remarks, putting on the hat as Chairman of the Police 
Board. Let me share just a few thoughts. The Board works 
closely with Chief Morse and his Department in assessing 
security risks and determining appropriate approaches for 
avoidance or mitigation. The addition of an inspector general 
presents a unique opportunity for the Department and the Board 
to identify the best business and security practices while 
auditing the results. But make no mistake: this Capitol 
continues to be a prime target of terrorists. We need to be 
steps ahead of the offender. One step ahead is not good enough. 
Your United States Capitol Police is a professional 
organization fully capable of balancing freedom of access and 
security, but this is no small task and the challenges are 
many.
    The cost of technology and of its maintenance is high. The 
stress of constant diligence is real. The mission requirements 
are evolving. The United States Capitol Police have prepared a 
budget request that reflects the needs of the Department in 
meeting critical security requirements as they are currently 
understood and I would emphasize as they are currently 
understood. They have been judicious in the initiatives 
included in the budget. Chief Morse and his team have the full 
support of the Capitol Police Board and their efforts, 
especially in determining the number of personnel needed, 
evaluating threats, and maximizing the use of technology.
    Please keep in mind that as the threat environment changes 
or additional mission requirements are added the Department 
will in all probability need additional personnel along with a 
concomitant associated cost. For instance, the opening of the 
Capitol Visitor Center (CVC) is an additional responsibility.
    From the police perspective, this means more doors to cover 
and people to protect. Longer hours of operation for that 
facility, more visitors, or the opening of doors, which are 
currently closed and locked, have the potential to be unfunded 
mandates. We need to weigh carefully the requests as they 
unfold for the year. The mutual efforts of our organizations, 
with the guidance and oversight of the Senate committees, will 
provide the work environment the Senate needs to make the 
important, tough decisions for America. Thank you and I look 
forward to trying to answer your questions.
    Senator Landrieu. Thank you very much.
    [The statements follow:]

         Prepared Statement of the Honorable Terrance W. Gainer

                              INTRODUCTION

    Madam Chairman and Members of the Subcommittee, thank you for 
inviting me to testify before you today. I am pleased to report on the 
progress the Office of the Sergeant at Arms (SAA) has made over the 
past year and our plans to enhance our contributions to the Senate in 
the coming year.
    For fiscal year 2008, the Sergeant at Arms respectfully requests a 
total budget of $226,893,000, an increase of $27,642,000 (or 13.9 
percent) over the fiscal year 2007 budget. This request will allow us 
to enhance service to the Senate community by supporting and improving 
the Senate's technology infrastructure and to ensure a safe and secure 
environment. Appendix A, accompanying this testimony, elaborates on the 
specific components of our fiscal year 2008 budget request.
    In developing this budget and our operating plans, we are guided by 
three priorities: (1) ensuring the United States Senate is as secure 
and prepared for an emergency as possible; (2) providing the Senate 
outstanding service and support, including the enhanced use of 
technology; and (3) delivering exceptional customer service to the 
Senate.
    This year I am pleased to highlight some of this Office's 
activities including the publication of the ``United States Senate 
Sergeant at Arms Strategic Plan''. Our accomplishments in the areas of 
security and preparedness, information technology, and operations are 
also impressive. We are preparing for next year by planning for the 
major events we know will come and by ensuring that the Office of the 
Sergeant at Arms is an agile organization that can adjust to the 
unexpected.
    An outstanding senior management team leads the efforts of the 
dedicated Sergeant at Arms staff. Drew Willison serves as my Deputy, 
and he and I are joined by Administrative Assistant Rick Edwards, 
Republican Liaison Lynne Halbrooks, General Counsel Dan Strodel, 
Assistant Sergeant at Arms for Security and Emergency Preparedness 
Chuck Kaylor, Assistant Sergeant at Arms for Police Operations Bret 
Swanson, Assistant Sergeant at Arms and Chief Information Officer Greg 
Hanson, and Assistant Sergeant at Arms for Operations Esther Gordon. 
The many accomplishments set forth in this testimony would not have 
been possible without this team's leadership and commitment.
    The Office of the Sergeant at Arms also works with other 
organizations that support the Senate. I would like to take this 
opportunity to mention how important their contributions have been in 
helping us achieve our objectives. In particular, we work regularly 
with the Secretary of the Senate, the Architect of the Capitol, the 
Office of the Attending Physician, and the United States Capitol Police 
(USCP). When appropriate, we coordinate our efforts with the U.S. House 
of Representatives and the agencies of the Executive Branch. I am 
impressed by the people with whom we work, and pleased with the quality 
of the relationships we have built together.
    This is my first year testifying before this Committee as Sergeant 
at Arms and I would be remiss if I did not mention how proud I am of 
the men and women with whom I work. The employees of the Office of the 
Sergeant at Arms are among the most committed and creative in 
government. We hope to build on the success this organization has 
experienced in recent years.
    None of our efforts would be accomplished, though, without the 
guidance of this Committee and the Committee on Rules and 
Administration. Thank you for the support you consistently demonstrate 
as we work to serve the Senate.

Challenges of the Past Year
            Funeral of Former President Ford
    On Saturday, December 30, 2006, the remains of former President 
Gerald R. Ford arrived on the East Front of the Capitol in a formal 
military procession. The United States Capitol was the site of the 
second State Funeral since 1973 and the second in the past two and a 
half years.
    My office coordinated preparations for this national event with 
many internal and external organizations. This event could not have 
been accomplished without the extraordinary efforts of many Sergeant at 
Arms employees who were tireless in their dedication to meeting the 
Senate community's needs. Many of our employees canceled their holiday 
and year-end leave plans to support this historic event.
    Capitol Facilities staff cleaned and set up the holding rooms, the 
Photo and Recording Studios captured the event for viewing and 
historical purposes, and other staff provided behind-the-scenes 
support. Our media galleries worked tirelessly to support the media 
needs.
    We also focused on protocol and security throughout the week. My 
Executive Office staff coordinated attendance at the service in the 
Capitol Rotunda with Senate offices, and they assisted the Senators and 
officials who participated in the program. In addition, we were 
responsible for coordinating the official Senate delegation's 
attendance at the National Funeral Service, held at the Washington 
National Cathedral on January 2, 2007. My security team collaborated 
with the United States Capitol Police, the Secret Service, and other 
Federal agencies to ensure a secure environment, and we were a 
continuous presence in the Capitol Police Command Center. As a result 
of everyone's work, approximately 50,000 mourners were able to pay 
their respects to the former President in the Rotunda of the Capitol.
            Transition
    My Office facilitated the change to the new Congress by equipping, 
staffing, and running the Transition Office for newly elected Senators, 
coordinating the moves and setup of temporary office suites, and 
coordinating the moves and setup for permanent office space both for 
new Senators and Senators who chose to relocate. We installed equipment 
in the transition office space, and provided administrative and mail 
services, as well as Web sites, documents, and placement services to 
assist the newly elected Senators.

 SECURITY AND PREPAREDNESS: PROTECTING THE SENATE AND PLANNING FOR THE 
                                UNKNOWN

    In our security and preparedness programs, we work collaboratively 
with organizations across Capitol Hill to secure the Senate. We also 
rely upon Senate Leadership, this Committee, and the Committee on Rules 
and Administration for guidance and support.
    While nearly six years have passed since 9/11 and the anthrax 
attacks, and although no major attack has occurred against us at home, 
the threat of attack remains. Not all hazards are man made, and our 
contingency plans can be implemented to respond to natural disasters as 
well. Over the past two years, Senate offices in Washington, D.C. and 
in the States have been impacted by local disruptions and natural 
disasters. The security and emergency programs that have been developed 
over the past six years have enabled the Senate and our supporting 
agencies to respond appropriately in each instance, ensuring the safety 
of staff and visitors and recovering operations as rapidly as possible. 
The ongoing improvement and appropriate expansion of our security and 
emergency plans and programs will continue to be a priority for the 
Sergeant at Arms.
    On September 6, 2000, the Bipartisan Leadership for the 106th 
Congress directed the Capitol Police Board to develop and manage a 
program which would enable the Congress to fulfill its constitutional 
obligations in the event of a disaster-related incident. The Capitol 
Police Board was further directed to coordinate with Officers of the 
Senate and House to develop a comprehensive Legislative Branch 
emergency preparedness program. As a member of the Capitol Police Board 
and Chairman for 2007, the Senate Sergeant at Arms will continue to 
build on the accomplishments of previous Boards.
    Our efforts to ensure that we can respond to emergencies and keep 
the Senate functioning under any circumstance have grown over the past 
years. To continue improvements in this area and better manage our 
security and preparedness programs, we have established seven strategic 
priorities to focus our efforts:
  --Emergency Notifications and Communications.--Provide effective 
        communications systems, devices, and capabilities to support 
        the Senate during any emergency.
  --Accountability.--Ensure accurate and timely accounting of Members, 
        Senate staff, and visitors during an emergency.
  --State Office Security and Preparedness.--Develop and implement a 
        comprehensive, all hazards state office security and 
        preparedness program.
  --Emergency Plans, Operations and Facilities.--Continue emergency 
        planning, emphasizing life-safety, continuity of operations, 
        and programs to address the needs of individuals after a 
        disaster.
  --Training and Education.--Continue a strong emergency preparedness 
        training program.
  --Exercises.--Conduct a comprehensive exercise program to validate, 
        rehearse and improve Senate readiness to act in the event of an 
        emergency.
  --Office Support.--Provide responsive security services and customer 
        support to Senate offices, committees, and support 
        organizations.

Emergency Notification and Communications
    Our emergency notification and communications initiatives ensure 
that we have effective communications systems, devices, and 
capabilities in place to support the Senate during an emergency. We 
have continued to improve our notification and communications processes 
over the past year. We expanded the coverage of text alerts to include 
any PDA on any cellular or data service provider. We are currently 
integrating all notification systems into a single Web-based interface, 
allowing the Capitol Police to initiate voice and text messages to 
several thousand individuals in a matter of seconds. We have also 
installed a video-based alert system that will allow the Capitol Police 
to display emergency messages on the Senate cable TV network. Over 
1,300 wireless annunciators are in place across the Senate, and the 
Capitol Police have completed the installation of a public address 
system that can broadcast into public areas throughout the Capitol, 
Senate Office Buildings, and outdoor assembly areas. Further, if the 
Senate is forced to relocate, we have the capability to video 
teleconference and broadcast between an emergency relocation site and 
other Legislative Branch and Executive Branch sites.
    Looking forward, we intend to expand our telephonic and text-based 
notification capabilities to support office and staff requirements 
during emergencies. Additionally, our video teleconferencing 
capabilities will soon provide the ability to create ``Anytime 
Anywhere'' video conferences.

Accountability
    Accountability of Members and staff remains an area of emphasis in 
all our emergency plans and evacuation drills. One of our major 
initiatives this year was to improve procedures for offices to report 
accountability information to the Capitol Police and the Sergeant at 
Arms quickly and accurately. Significant progress was made during 2006 
to better achieve these goals.
    In 2006, a BlackBerry-based accountability application was 
deployed, allowing Office Emergency Coordinators to account for staff 
remotely using their BlackBerry. This builds on the automated check-in 
system that was developed and fielded to Senate offices and committees 
in 2005. Both accountability methods are now operational and used 
during quarterly drills. The backbone for this capability, termed the 
Accountability and Emergency Roster System, or ALERTS, allows each 
office to manage staff rosters as well as to indicate who in the office 
is to receive email and telephonic alerts from the Senate's emergency 
notification system. A comprehensive instruction manual has been 
produced for use by Capitol Police and Office Emergency Coordinators. A 
total of 176 Senate staff members were trained on how to use ALERTS and 
Remote Check-in during in-office or classroom sessions. Our staff has 
also trained personnel in the Capitol Police Senate Division on the use 
of this system.
    Personnel accountability is stressed in the Emergency Action Plan 
template that we have developed for use by all Senate offices. This 
template, offered to all offices, encourages the development of 
internal communications procedures during emergencies through a phone 
tree or emergency contact list. Offices are encouraged to establish and 
periodically practice these internal procedures for accounting for 
staff members, post emergency. To aid in this effort, we conduct 
Emergency Action Plan training classes with a special emphasis on staff 
accountability and stress the initiative during all Office Emergency 
Coordinator training. Once a quarter, our office conducts a remote 
accountability exercise with Senate Office Emergency Coordinators. 
During our most recent exercise, over 125 individuals logged in to 
provide office accountability, and we worked with twenty offices on 
training and configuration issues.

State Office Security and Preparedness
    The Senate's State Office Preparedness Program consists of several 
elements. First is the Physical Security Enhancement Program. This 
program provides a security assessment of each state office, followed 
by physical security enhancements if the office desires to participate 
in the program. We have completed an initial physical security survey 
of all established state offices and the results of these on-site 
reviews were provided to each Member. In addition to the physical 
security enhancements, we have developed and are piloting a program 
that provides additional emergency preparedness and continuity of 
operations support to state offices.
    Since the program's inception in 2002, we have conducted 538 state 
office security surveys and will conduct another 76 surveys of new and 
relocating offices for the 110th Congress over the coming months. We 
have completed security enhancements in 183 state offices of which 75 
were completed in 2006. This past year we finalized an agreement with 
the Federal Protective Service and General Services Administration to 
streamline installation of security enhancements for Senate state 
offices located in federal buildings. We are currently working with 60 
state offices in some stage of planning or approval. To date, members 
of our Office of Security and Emergency Preparedness have visited 
approximately 24 state offices where security enhancements have been 
installed or implemented. Staff from each of these offices has 
expressed tremendous gratitude for the security enhancements and the 
personalized visit. In short, this is a successful program and we will 
continue our emphasis in this area.
    Our State Office Preparedness Program combines our existing 
physical security enhancement program with additional emergency 
preparedness and continuity of operations planning (COOP) support. This 
level of support includes equipment and training and will mirror those 
programs that are currently offered to Member's Washington, D.C. 
offices. We have identified specific requirements to tailor the program 
to the individual state offices based on a needs analysis and risk 
assessment, and are piloting this program with 10 Member state offices 
across the United States starting in the spring of this year. If 
successful, we plan to offer this program to all Member state offices 
in 2008.

Emergency Plans, Operations and Facilities
    Our emergency plans ensure that we attend to the safety of Senate 
Members and staff, as well as to the continuity of the Senate. It is 
the responsibility of each Member office and committee to have the 
requisite plans in place to guide their actions during any emergency 
event. I can report that every Member office completed and filed an 
Emergency Action Plan with our Office of Security and Emergency 
Preparedness during the 109th Congress. These are being updated by 
Member Offices now, and new Members have initiated plans. Every office 
within the SAA and Secretary of the Senate has a completed Continuity 
of Operations (COOP) plan, almost every Member office has a COOP Plan, 
and the SAA is working with every committee to ensure their respective 
continuity of operations plans are developed. Our staff provides 
training, guides, templates, assistance, and in-office consulting 
sessions to any office that requests it. Those offices that have 
updated plans are encouraged to maintain and exercise them.
    We established working groups to identify and address all Senate 
emergency programs, plans, and requirements. Last year, we identified 
the need for post-event care and family assistance. Over the past year, 
we have continued to develop plans that provide critical services to 
affected families following a wide-spread event. In cooperation with 
the Senate's Employee Assistance Program, we have conducted training 
with a core group of employees to establish peer support teams. That 
training will expand this year.
    Recognizing the Sergeant at Arms' responsibility to coordinate the 
actions of internal organizations, inform and support Senate offices, 
and effectively manage the resources within our purview during an 
emergency, the SAA has established an Emergency Operations Center (EOC) 
capability that pulls key functional area representatives together into 
a single operational area during an emergency. The SAA exercised this 
capability twice during 2006, upgraded to a web-based EOC management 
and information tracking application, WebEOC, and conducts quarterly 
training for internal functional representatives.

Training and Education
    Training helps Senate staff know what to expect in an emergency, 
how to use the equipment we provide, and what protective actions they 
may take. We help office staff create continuity and emergency plans. 
We conduct training on all of our equipment including emergency 
equipment, emergency communication devices, and our accountability 
system. Our training program is coordinated through the Joint Office of 
Education and Training.
    Training activities over the past year included 351 escape hood 
training sessions that were delivered to 5,132 staff members; nine 
chemical, biological, radiological, and explosives briefings for 125 
staff; 20 office emergency coordinator basic and advanced training 
sessions reaching 130 staff. CPR and Automated External Defibrillator 
(AED) training is also taught by the Office of the Attending Physician. 
This training for 24 personnel monthly is typically oversubscribed.
    Not everyone is able to attend training classes. To augment our 
training efforts, the SAA creates and distributes topic-specific 
brochures and guidance documents to further enhance Senate 
preparedness. These are distributed throughout the community and 
describe procedures, emergency equipment, and other useful instruction 
for emergencies. A number of the brochures were updated in 2006, and 
Protective Actions for Interns was added to this portfolio. This year 
the SAA developed and provided computer-based training options on our 
emergency equipment and emergency procedures to every office and any 
staff member with access to Webster. Our computer based training 
support to offices will continue to expand as new courses are developed 
and made available on-line.

Exercises
    Exercises ensure the Senate's plans are practiced and validated on 
a regular basis. Our comprehensive exercise program is structured to do 
just that. The Senate Sergeant at Arms' 2006 Exercise Program was 
diverse and productive. During the period, we conducted a series of 
eleven major exercise events in partnership with other Senate and 
Capitol Hill stakeholders to include the Capitol Police, Architect of 
the Capitol, Office of the Attending Physician, and the U.S. House of 
Representatives. Emergency Operations Center capabilities were 
exercised on five occasions, to include first-ever set up of our 
alternate locations. We established procedures for Leadership and 
Members, and conducted relevant training and exercises. Recently, we 
conducted an exercise related to the Senate Chamber that included the 
USCP, all Secretary and Sergeant at Arms Chamber staff, and the Party 
Secretaries' staffs. In February of 2007 we conducted a review of the 
Disaster Family Assistance plans to further identify and develop policy 
issues and operational requirements and procedures for this area. The 
highlight for the year was a two-day concurrent capabilities exercise 
where the setup of four key contingency facilities was accomplished 
nearly simultaneously. In past years, these facilities were exercised 
independently, and this year's exercise tested our Leadership and 
Member locations, an alternate Chamber, and the Sergeant at Arms and 
Secretary's Emergency Operations Center in one event. An interagency 
Joint Legislative Branch communications test for off-campus locations 
and an emergency transportation command and control exercise further 
rounded-out the exercises that were conducted. Our 2007 exercise 
program is equally aggressive and continues to ensure the Senate can 
conduct operations under any circumstance.

Office Support
    The Senate's emergency equipment ensemble for Senate offices 
continues to mature. Each office has received Emergency Supply Kits, 
uniquely tailored for the Senate community. Over 448 have been 
distributed and are being maintained by Senate offices. These kits are 
designed to be used during ``shelter-in-place'' events, but have the 
functionality to be used on a daily basis if needed. Additionally, 72 
kits tailored for the Sergeant at Arms transportation fleet were 
developed and deployed in 2006.
    Over 1,300 wireless emergency annunciators are deployed throughout 
Senate offices. These systems provide the Capitol Police with the 
ability to audibly notify offices and provide instructions during an 
emergency. Our Emergency Preparedness Office provides day-to-day 
troubleshooting support to offices. This has resulted in the 
installation of 90 additional wireless emergency annunciator units in 
various offices throughout the Senate. Our Office of Security and 
Emergency Preparedness responded to 197 annunciator trouble calls in 
2006. In addition to daily troubleshooting support, we installed 
wireless emergency annunciators in the Russell Senate Office Building 
attic to ensure that all staff are alerted of evacuations and emergency 
situations.
    In 2006, the Senate Sergeant at Arms completed lifecycle 
replacement of the Quick 2000 Escape Hoods with the new SCape CBRN30 
Escape Hoods. Our program also added the Baby SCape Escape Hood for 
children under the age of three. We replaced over 20,000 escape hoods 
in Senate offices and in the public caches throughout the Senate. To 
address special locations and our mobility impaired evacuation 
procedures, almost 800 Victim Rescue Units that provide respiratory 
protection in a smoke filled environment have been issued to mobility 
impaired individuals and their buddy teams.
    We will conduct an annual inventory and serviceability inspection 
of all emergency equipment items issued to Senate offices later this 
year.
    We provide other office outreach and support through widely 
distributed publications and monthly informational notices to Office 
Emergency Coordinators. We also make extensive use of the Senate's 
intranet resources to support offices.

Mail Safety
    The anthrax and ricin attacks of past years necessitated new 
security measures, and our Office responded. We have worked 
collaboratively with this Committee, the Committee on Rules and 
Administration, our science advisors, the Capitol Police, United States 
Postal Service, the White House Office of Science and Technology 
Policy, and the Department of Homeland Security in developing safe and 
secure mail protocols.
    All mail and packages addressed to the Senate are tested and 
delivered by Senate Post Office employees whether they come through the 
U.S. Postal Service or from other delivery services. We have 
outstanding processing protocols in place here at the Senate. The 
organizations that know the most about securing mail cite the Senate 
mail facility as among the best. We have been asked to demonstrate our 
procedures and facilities for some of our allies and for other 
government agencies, including the Departments of Defense and Homeland 
Security. When they look for ways to improve their mail security, they 
visit our facility.
    We have been good stewards of taxpayer dollars in the process. We 
processed volumes of mail similar to that of the House of 
Representatives and we accomplished it for approximately 40 percent of 
their cost. Last year, the Senate processed, tested, and delivered over 
13,700,000 safe items to Senate offices, including over 9,600,000 
pieces of U.S. Postal Service mail; over 3,900,000 pieces of internal 
mail that are routed within the Senate or to or from other government 
agencies; almost 70,000 packages; and over 136,000 courier items.
    We continue to seek improvements in mail processing and have worked 
with this Committee in identifying avenues to reduce our costs. In 
April 2007, we will move our Alexandria letter mail processing 
activities into a newly constructed facility that will enhance the 
processing of Senate letters as well as perform the package testing 
that is currently being performed by a vendor. Bringing the processing 
of packages in-house will increase the security of the packages and 
will save the Senate over $200,000 annually. This state-of-the-art 
facility will provide a safer and more secure work environment for our 
employees and is designed to serve the Senate's mail processing needs 
for decades.
    We also worked with this Committee and the Committee on Rules and 
Administration to build one of the best facilities within the 
government to process time sensitive documents that are delivered to 
the Senate. This past August, we opened the Courier Acceptance Site to 
ensure all same day documents are x-rayed, opened, tested, and safe for 
delivery to Senate offices. The number of time sensitive documents 
addressed to Senate offices is significant. We processed over 136,000 
courier items during 2006.
    Since the anthrax attacks of 2001, our office has worked with the 
Department of Homeland Security, the United States Postal Service 
(USPS), and our science advisors in seeking avenues to improve the 
safety of the mail routed to Senate state offices and to Members' home 
addresses. USPS has installed detection units at mail processing plants 
throughout the United States. Virtually every letter is run through 
this equipment which is designed to detect certain contaminants, 
thereby providing a safety screen that did not exist in the past.
    This year our Senate Post Office and our Office of Security and 
Emergency Preparedness worked collaboratively with our science advisors 
to develop and introduce the first device designed to provide Senate 
staff who work in state offices a level of protection when handling 
mail. To date, four Member state offices are participating in this 
program, and the feedback received from Senate staff has been 
favorable. Our plan is to expand this program to all state offices 
within the next six months.

Office of Police Operations and Liaison
            Security and Vulnerability Assessments
    The Senate Sergeant at Arms works closely and on a continuous basis 
with the Capitol Police, the Capitol Police Board, and security and law 
enforcement agencies that support us here on Capitol Hill. 
Collectively, we constantly scrutinize our security posture, searching 
for any vulnerabilities, and determining the most efficient ways to 
remediate any we find. During 2006, the Capitol Police Board requested 
and subsequently received a security assessment of the Capitol Complex 
performed by the United States Secret Service. We are reviewing this 
assessment and will take its recommendation into consideration as we 
fund and execute security enhancements for the Senate.
            Identification Badge Improvements
    In March of 2006, the Capitol Police Board established a task force 
to examine identification badge policies and procedures across the 
Congressional campus. The goal was to increase security, reduce fraud 
and system abuse, and achieve uniformity of identification processes 
and practices by adopting a standard identification system for use 
throughout the campus. As a result of the work performed by the task 
force, several security enhancements were added to the ID badges issued 
for the 110th Congress, including: designations on limitations on hours 
of access; larger photographs; a simpler text field to ease confusion 
experienced by police officers who must examine the cards; and 
standardization of badges issued to personnel of external agencies. The 
Task Force's work also set the foundation for future communication 
across the Congressional campus when implementing new identification 
policies and procedures.
            Foreign CODEL Support Program
    The Foreign CODEL support program was created to ensure that the 
unique needs and security requirements of Senators are met while they 
perform official travel outside the contiguous United States. Through a 
coordinated liaison effort between the SAA, USCP, and the Department of 
State, threat assessments and security reviews are conducted for 
official foreign travel performed by Senators. USCP officers are 
assigned as security liaison agents for CODEL trips that warrant 
security.

  INFORMATION TECHNOLOGY--A STRATEGY FOR SECURITY AND CUSTOMER SERVICE

    We continue to place special emphasis on leveraging technology to 
enhance security, emergency preparedness, service, and support for the 
United States Senate. Last year we issued the Senate's updated 
Information Technology Strategic Plan, ``An IT Vision for Security, 
Customer Service and Teamwork at the United States Senate 2006-2008'', 
and this year we are half-way through executing that plan. We have 
already accomplished some impressive results.
  --Replication of all mission-critical systems at the Alternate 
        Computing Facility (ACF) and successful execution of two 
        complete failover tests for continuity of operations and 
        continuity of government (COOP/COG).
  --Raising the CIO's overall customer satisfaction rating to 87 
        percent.
  --Completion and full operational capability of the Senate's first 
        redundant security operations centers (SOC).
  --Successful completion of requirements phase and procurement 
        activity for the Senate Telecommunications Modernization 
        Program (TMP).
  --Completion of the Active Directory and Messaging Architecture 
        (ADMA) project--the largest and most successful infrastructure 
        project ever undertaken in the Senate to provide a state-of-
        the-art messaging infrastructure custom tailored to meet the 
        security and privacy needs of individual offices.
  --Completion of an award-winning wireless infrastructure to support 
        cellular telephone, BlackBerry emergency communication devices, 
        and wireless local area networks (LANs) across the Senate 
        campus.
  --Development of a new emergency communications system based on 
        device-to-device communications and not reliant on any 
        commercial cellular carrier. This system provides robust 
        emergency communications while allowing Member offices to 
        purchase cellular service from the carrier of their choice.
    Our CIO is currently preparing the annual update of the Senate IT 
Strategic Plan which lays out our technology direction for the next two 
years. This new version updates the five strategic goals to enhance our 
customers' service experience and the Senate's security posture 
through:
  --Supporting Senate continuity of operations plans (COOP) and 
        continuity of government (COG) by deploying an information 
        infrastructure that is flexible and agile enough to respond to 
        adverse events.
  --Continuing to reduce paper-based manual processes and moving 
        business on-line.
  --Continuously improving our customer care processes using feedback 
        from our customers through performance metrics, customer 
        satisfaction surveys, and service level achievement 
        measurements.
  --Access to mission-critical information anywhere, anytime, under any 
        circumstances through continued development of alternate 
        computing facilities, remote access technologies, and 
        eliminating bottlenecks and potential failure points in the 
        Senate's information infrastructure.
  --Replacing the Senate's telephone switch with a new state-of-the-art 
        switch and ancillary services based on Voice over Internet 
        Protocol (VoIP) and convergence technologies.
    Five strategic information technology goals, and their supporting 
objectives, drive our information technology programmatic and budgetary 
decisions. There are currently approximately 50 major projects under 
active project management directly tied to the following five strategic 
goals:
  --Secure.--A secure Senate information infrastructure
  --Customer Service Focused.--A ``Customer Service Culture'' top-to-
        bottom
  --Effective.--Information technology solutions driven by business 
        requirements
  --Accessible, Flexible & Reliable.--Access to mission-critical 
        information anywhere, anytime, under any circumstances
  --Modern.--A state-of-the-art information infrastructure built on 
        modern, proven technologies
    Another key aspect of the plan--the CIO organization's Core Values 
and Guiding Principles--defines the organization's culture and ensures 
it is aligned strictly with the Senate's business priorities. These 
values and principles emphasize people, teamwork, leadership, and a 
relentless pursuit of organizational excellence. The goal is to have 
the right sized workforce with the correct talent mix to deliver 
information technology services and solutions quickly and effectively 
to satisfy the Senate's requirements.

Technology for Security, Accessible, Flexible & Reliable Systems, and a 
        Modern Senate Information Security Infrastructure
    We are improving the security of the technology infrastructure that 
protects data, respects privacy, enables continuous Senate operations, 
and supports our emergency and continuity plans. Our efforts over the 
past year have enabled us to support alternate sites and the 
replication of information, as well as emergency and contingency 
communications. We are delivering increased support for remote access 
and are completing the in-building wireless infrastructure. A 
significant commitment to information technology security will 
increasingly protect the Senate from external threats, and the multi-
year telecommunications modernization project will improve the 
reliability of the infrastructure. This work all focuses on improving 
the ability of the Senate to accomplish its mission.
            Alternate Sites and Information Replication
    We continue to develop our ability to relocate information systems 
capability at the alternate computing facility (ACF). All critical 
Senate enterprise information systems are now replicated there, using 
sophisticated storage area network technology. In October, the CIO 
conducted the second comprehensive test of the facility: Senate primary 
computing facilities (including network access) were completely shut 
down and reconstituted at the ACF. Full capability and functionality 
were provided from the ACF for a period of four hours and then systems 
were ``failed-back'' to the primary computing facility on Capitol Hill. 
Like the first comprehensive test, conducted in December 2005, this 
exercise, which encompassed more applications, was a complete success. 
Funds requested in fiscal year 2008 will help us continue to upgrade 
the storage area network to meet expanding data requirements and ensure 
we can continue to replicate Senate enterprise systems successfully at 
the ACF.
    This past year the CIO organization continued helping Member and 
committee offices replicate their data to state offices and to the ACF 
through the remote data replication (RDR) program. As of February 2007, 
there are 41 Member offices and 17 committees taking advantage of this 
program, with 45 percent installed at the ACF and 55 percent installed 
in Members' state offices. RDR will provide the Senate an unprecedented 
ability to access institutional data in the event of an emergency. 
Another system which is integral to emergency planning, particularly in 
the event of a mass telecommuting scenario such as a pandemic, is the 
Senate's video teleconferencing system. This highly-successful project 
now has over 525 units installed supporting offices across the nation 
with usage rates in excess of 30,000 minutes per day when the Senate is 
in session.
    The CIO completed the active directory messaging architecture 
(ADMA) project this past year, offering Member offices three 
architectural options for their messaging infrastructure. Both the 
enterprise and hybrid architectures provide complete replication of the 
Member's electronic mail at the ACF. Eighty-five percent of the offices 
are now taking advantage of the COOP capability inherent in the 
enterprise and hybrid options.
    We recently introduced the Virtual File Server (VFS) system which 
allows offices to store data securely on our large, centrally-hosted, 
enterprise-class storage area network. The VFS system, as designed, 
provides redundancy for disaster recovery and COOP and minimizes the 
environmental and staff burden of in-office data storage. Offices that 
opt for VFS also enjoy enterprise-level data backup and off-site 
storage of backup tapes while retaining control of data recovery. The 
active components are located at the ACF. In the event of a disaster 
that renders the PCF system unavailable, the ACF system will be brought 
on line and will provide users consistent access to their data. The VFS 
system has been available since December, 2006, and already fourteen 
Senate offices have taken advantage of this exciting new technology.
            Emergency and Contingency Communications
    The CIO is providing a comprehensive array of communications 
systems and options with the objective of being able to communicate 
under any circumstance. A new capability, currently being deployed 
Senate-wide, is the Senate Message Alert Client (SMAC). SMAC eliminates 
our dependence on any single commercial carrier for BlackBerry 
emergency communications and provides the flexibility of device-to-
device communications. Through SMAC, emergency notification lists can 
be created, inter- or intra-office, to push emergency messages directly 
to devices on the list in real time. SMAC and the global email alert 
system are two of the primary methods for the USCP and the SAA to issue 
mass emergency communications messages.
    This year we continued upgrading and testing our two Senate 
emergency response communications vehicles according to a monthly 
exercise plan. These assets are available for deployment with LAN, WAN, 
telephone, and satellite connectivity and provide the ability to 
relocate significant information infrastructure virtually anywhere. We 
also continue to train and expand our deployment teams, and work to 
revise and refine our operations procedures for deployment of these 
vehicles in support of the Senate.
    This past year we completed the in-building wireless infrastructure 
in all of the Senate office buildings, including the Capitol, and are 
currently outfitting the Capitol Visitor Center (CVC) in preparation 
for its opening in 2008. This innovative system, which won a Government 
Computing News Best Practices Award, improved signal strengths for the 
major cellular telephone carriers as well as BlackBerry service. This 
infrastructure provides coverage in areas where it was previously poor 
or non-existent and allows Senate staff to connect back to their 
offices via wireless remote computing. The wireless infrastructure also 
supports every carrier, allowing Members to use the carrier of their 
choice with the device of their choice across the Senate campus.
    This year Senate COOP and reconstitution sites have been equipped 
with information technology infrastructure including 
telecommunications, data networks, and video teleconferencing. 
Additionally, mobile and remote computing technologies allow Senate 
staff to access and modify their information and communicate from 
virtually anywhere, anytime. We will continue to enhance and expand 
these capabilities in order to support a potentially dispersed 
workforce with the ability to telecommute. These capabilities are 
crucial to our ability to support the Senate in an emergency situation 
where the workforce must be dispersed and also support the Senate's 
ability to provide employees with flexible work options on a daily 
basis.
    We are dedicated to providing an integrated and highly-reliable 
emergency communications infrastructure through a variety of projects 
including expanding our emergency communications infrastructure, 
integrating and streamlining emergency communications capability, 
liaison with the USCP command center, developing specifications for 
outfitting emergency operations centers (EOC) and leadership 
coordination centers, and conducting monthly comprehensive testing of 
emergency alert notification systems. This past year we successfully 
conducted comprehensive Senate-wide tests of all of our emergency 
communications systems, upgraded the SAA EOC with a web-based 
management system, and began work on a major upgrade of the Senate's 
mass communications system.
            Securing our Information Infrastructure
    As a result of information security activities we described in last 
year's testimony, we have gained a much better understanding of the 
dynamic nature of global cyber threats. This knowledge, combined with 
the flexible technologies used in the security operations center (SOC), 
allows us to understand the overall IT operational risk present in the 
Senate environment. Adjusting our own SAA controls, and making 
recommendations to offices and committees, allows us to help ensure 
continuity of government by increasing availability of the IT 
infrastructure, even under duress.
    In the IT security threat environment, the list of potential 
threats to our information infrastructure is growing in number and 
sophistication. Over the next year, we will meet the challenge of 
managing a volatile security environment by: (1) expanding the role of 
the recently established SOCs; (2) optimizing our current configuration 
of security controls; (3) improving our collaboration with other 
federal agencies in the areas of incident response and situational 
awareness; (4) evaluating, testing, and deploying new security control 
mechanisms; and (5) enhancing communication with IT staff in Member and 
committee offices to give them timely and usable information in order 
to improve the security posture of their local IT systems.
    During a recent four-month period, our most visible IT system, the 
Senate`s website, www.senate.gov, was the target of over 17 million 
discrete unsuccessful security events from almost 200,000 different 
Internet addresses. A recent external security review of the site 
helped us make some adjustments that will secure the site even more, 
but the site itself is a prime target for attacks. We will soon engage 
an outside party to perform another assessment of www.senate.gov, as we 
have made a number of infrastructure improvements over the last year.
    Similar to security in the physical world, security in the 
information technology world requires constant vigilance and the 
ability to deter attacks. The threats to our information infrastructure 
are increasing in frequency and sophistication, and they come from 
spyware, adware, malware, Trojans, keyloggers, spybots, adbots, and 
trackware, all of which continuously search for vulnerabilities in our 
systems. Countering the evolving threat environment means increasing 
our awareness of the situation, improving our processes, and 
continually researching, testing, and deploying new security 
technologies. Because we have very little advance notice of new types 
of attacks, we must and do have flexible security control structures 
and processes that are continually revised and adjusted. Our efforts to 
cultivate external relationships to improve our overall awareness of 
internet-based threats have been effective. As the global threat 
environment has shifted, we have modified our techniques and our 
technologies to improve our awareness and response to better protect 
the Senate's IT infrastructure.
    This last year, we experienced growth in the area of office and 
committee computer security assistance. We are increasingly called upon 
to help offices and committee system administrators properly configure 
desktop and server security controls. We also assist them in evaluating 
our weekly reports on anti-virus controls. Additionally, we are now 
monitoring Internet email ``blacklists'' for potential delivery issues. 
As the Senate continues to employ cutting edge technologies, the IT 
security group's activities will adjust in order to ensure optimal 
product performance and service delivery. We continue to use cutting 
edge technology, not only within our IT security services, but also in 
our IT security infrastructure. For example, we recently upgraded our 
antivirus infrastructure which will allow us greater flexibility, 
better utilization of our computing resources, and will enhance our 
availability and disaster recovery capabilities. This infrastructure is 
very scalable, and we can continue to expand capabilities while 
conserving on costs.
    Protecting the Senate's information is one of our most important 
responsibilities. This year we have taken tremendous strides in this 
area with the development and operation of the Senate`s redundant SOCs, 
one located at Capitol Hill and the other at the ACF. The mission of 
the SOCs is to identify and understand threats, assess vulnerabilities, 
identify failure points and bottlenecks, determine potential impacts, 
and remedy problems before they adversely affect Senate operations. In 
the coming months, an outside party will perform an operations review 
of our current SOC implementation and we will use the results of this 
assessment to procure, as needed, additional cyber security products 
and services which will provide enhanced value to our customers. We 
augment this capability with close liaisons to other federal agencies 
to ensure we have the most up-to-date information and techniques for 
combating cyber threats. Running within the SOCs, a state-of-the-art 
security information management system aggregates and reports on data 
from a variety of sources worldwide to help us track potential 
attackers before they can harm us. The combination of the security 
operations center, our defense-in-depth capability at all levels of our 
network infrastructure, and our enterprise anti-virus/anti-spyware 
programs has proven highly effective.
    The threat environment, as measured by detected security incidents, 
remains very high. For example, every day we detect approximately 
1,121,000 potential security threats targeting the Senate, over 40 
percent of which are characterized as medium to high risk. Other anti-
virus/worms controls detected and countered 2,181 viral events in 310 
computers located in 91 Senate offices in just the three-month period 
between November 1, 2006, and February 1, 2007. To date, 136 Senate 
offices use our managed anti-virus system. This system protects over 
11,000 Senate computers. This is one of the main reasons that recent 
worm outbreaks affected only a relatively small number of Senate 
computers while just three years ago, outbreaks infected several 
thousand machines and caused notable disruption in IT operations. Our 
antivirus products are comprehensive and state-of-the-art.
    IT security is, and will continue to be, a growth area as we work 
to stay ahead of threats and put safeguards in place. We plan to 
increase both our analytical and defensive capabilities. Accordingly, 
this year we are requesting three new full-time employees in our IT 
Security Branch.
            The Senate Telecommunications Modernization Program
    We are currently in the process of modernizing the Senate's entire 
telecommunications infrastructure to provide improved reliability and 
redundancy to support daily operations and continuity of operations and 
government, as well as to take advantage of technological advances to 
provide a more flexible and robust communications infrastructure. We 
are now in the final engineering and design stage of this multi-year 
project to modernize Senate telecommunications systems in the Capitol, 
Hart, Dirksen, Russell, and Postal Square buildings.
    The telecommunications modernization program is being engineered to 
provide redundancy for increased reliability and availability resulting 
in a state-of-the-art system of converged voice, data, and video 
communications technologies built upon Internet telephony protocols or 
voice over IP (VoIP). This approach will allow economies of scale in 
construction and management and, from the user side, the ability to 
synchronize audio and video conferences, share documents, and 
collaborate at their workstations. The telecommunications modernization 
program will replace our twenty-year old telephone technology, 
eliminate single failure points, provide new capability and value to 
the Senate, and benefit from the security of running behind our 
infrastructure's firewalls.

Modern Technology to Enhance Customer Service
            Customer Service, Satisfaction, and Communications
    Our Strategic Plan stresses customer service as a top priority, and 
we actively solicit feedback from all levels and for all types of 
services. The CIO's Fourth Annual Customer Satisfaction Survey revealed 
another improvement with an overall customer satisfaction rating of 87 
percent, up two percent from last year. This comprehensive survey 
measures satisfaction with systems, solutions, service and the quality 
of personnel in our organization. Based on the survey results, our 
customer satisfaction action plan continues to stress developing strong 
communications and customer relationships, introducing modern 
technology faster, and providing offices with options and choices that 
tie the Senate's technology directly to the offices' business 
requirements.
    In addition to the comprehensive Annual CIO Customer Satisfaction 
Survey, we solicit customer feedback for every help desk ticket opened. 
We have very stringent service level agreements (SLAs) in place that 
directly drive the level of compensation our contractors receive. Since 
January 2006, we have exceeded the 95 percent SLA performance metric 
every month in system installation service levels, help desk resolution 
times, and customer satisfaction. In order to ensure we are 
communicating as much as possible and as effectively as possible with 
our customers, the CIO organization continues its comprehensive 
outreach and communication program through the CIO's Blog, information 
technology newsletters, quarterly project status reviews, participation 
in information technology working groups, weekly technology and 
business process review meetings with customers, joint monthly project 
and policy meetings with the Committee on Rules and Administration, the 
Senate Systems Administrators Association, and the Administrative 
Managers' Steering Group.
            Keeping Senators and their Staffs Informed
    The Senate Information Services program continues to deliver 
premium, vital online information services to Senators and Senate 
staff. These services range from the Senate's own ``real-time'' news 
tool, Senate NewsWatch, to enterprise-wide subscriptions to heavily-
used external research services that provide online access to: 
extensive current and archived news and general information including 
ten historical newspapers, federal and state statutes and case law, 
regulatory and judicial developments, congressional news and current 
policy issues analysis, information technology policy developments, and 
daily updated directories of government, business, and professional 
associations. In addition, Senate users accessed nearly 2.7 million 
real-time news stories and almost 1.5 million pages of Congressional 
news and current policy analyses during 2006. The most recent addition 
to the program differs from other online news services because of its 
unique digitally imaged, full-format graphical presentation of more 
than 300 U.S. and international newspapers available each morning on 
the day of publication. These newspapers appear on the screen as they 
would on the reader's desk, complete with photos and other graphics. 
Senate users viewed nearly 24,000 newspapers using this service in 
2006.
            A New Information Technology Support Contract
    The final option year of our current IT support contract ends in 
September 2007. Due to the large size, importance with respect to 
customer service and complexity, we began to develop contract 
requirements in 2005 and issued a request for proposals in 2006. We are 
currently in the process of reviewing proposals with the expectation of 
signing a new contract this summer. The new contract will incorporate 
lessons learned during the current contract and stress a high level of 
customer service and customer satisfaction through stringent SLAs that 
tie compensation to performance.
            A Robust, Reliable, Modern Messaging Architecture
    This past year we completed deployment of a comprehensive active 
directory and messaging architecture (ADMA) providing a spectrum of 
options for data management. A great IT success story, this project 
began in 2003 with the three primary goals: providing a computing 
platform that allows offices to replace servers running the now 
unsupported Windows NT 4 operating system, improving the messaging 
system, and providing offices with choices to meet their varying 
business needs. The design options were presented to Senate offices 
along with the expected impact on each office of migrating all 
computers, user accounts, and email. We committed to and met specific 
time frames for completing each office migration. Today, all Senate 
offices are enjoying the benefits of ADMA which includes a modern, 
robust, reliable, and scalable infrastructure, built-in options for 
continuity of operations, design choices, and a platform for leveraging 
modern technologies including collaboration, mobility, and 
communications.
            Web-Based and Customer-Focused Business Applications
    This year, we completed the first phase of a new Senate services 
portal. Based on the requirements of Senate offices and the Committee 
on Rules and Administration, the portal, called TranSAAct, is 
eliminating paper-based, manual processes and moving them to the web. 
Using TranSAAct, Member offices manage and track invoices for SAA 
services through a modern web interface and also have single sign-on 
access to a host of web-based applications including the ALERTS 
emergency notification database, package tracking, the metro fare 
subsidy system, and garage parking database. Built on an extensible 
modern database framework, TranSAAct allows indefinite expansion as new 
applications are added. We are now actively pursuing Phase II which 
will include many more applications, all available through the 
TranSAAct single sign-on interface.
    This year, we continued support to the Secretary of the Senate 
through improvements and enhancements of the Financial Management 
Information System and Legislative Information System. Reliance on 
special forms and dedicated hardware was eliminated as a new document 
printing application achieved full production usage. We also provided 
essential support on an electronic invoicing initiative with a major 
vendor. Finally, major architectural improvements were realized with 
the release of a new database and the addition of a new, modern 
operating environment on the Senate's mainframe computer.
    To provide more functionality and choices for Senate offices to 
manage correspondence, this past year we awarded new Constituent 
Correspondence Management Systems (CCMS) contracts. Under these 
contracts, we are able to offer offices new capabilities and more 
functionality such as document management, workflow, and improved email 
management. The new contracts also contain strict service level 
standards to provide for improved services and support from the 
vendors.
            Showcasing and Promoting Modern Information Technology in 
                    the Senate
    This past year we continued to highlight new technologies in the 
Information Technology Demonstration Center through a series of well-
attended CIO Demo Days. After products are tested and validated in the 
Technology Assessment Laboratory, they are then available for offices 
to try in the demo center. The Demo Days feature live demonstrations of 
new and emerging technologies. This year, we introduced: SMAC, virtual 
file services, and a variety of new communications devices.
    Also, this past year, we hosted two more highly-successful Senate 
Emerging Technology Conferences and Exhibitions to expose Senate staff 
to new technologies and concepts. These conferences are designed around 
technology themes of immediate interest Senate-wide. The two 
conferences held this past year featured new web technologies and the 
future of desktop computing. Speakers included industry leaders, Senate 
office staff, and CIO staff. The next Senate Emerging Technology 
Conference and Exposition, scheduled for April, will feature mobile 
computing technologies.
    In order to perform technology assessments, feasibility analysis, 
and proof of concept studies, to ensure we are considering technologies 
that will directly support the Senate's mission, we have expanded the 
technology assessment laboratory. Technologies and solutions are vetted 
and tested here prior to being announced for pilot, prototype, or mass 
deployment to the Senate. To ensure that relevant technologies and 
solutions are under consideration, the CIO-led technology assessment 
group, consisting of members of the CIO organization and our customers, 
performs high-level requirements analysis and prioritizes new 
technologies and solutions for consideration for deployment in the 
Senate. Some of the technologies explored in the lab during 2006 
include: advanced video teleconferencing to support distributed 
operations in the event of a pandemic; virtual file systems, as a 
remote data application option; new emergency communication products 
such as new BlackBerry devices; new multi-function machines to 
consolidate printing/scanning/faxing; and the latest office automation 
software. We publish the results of our studies on the emerging 
technology page of the CIO's intranet site on Webster.

   OPERATIONS AND SUPPORT: CONSISTENTLY DELIVERING EXCELLENT SERVICE

    The commitment to exceptional customer service is a hallmark of the 
Sergeant at Arms organization and the cornerstone of our support 
functions. The groups that make up our support team continue to provide 
exceptional customer service to the Senate community.

Capitol Facilities
    Our staff works around the clock to ensure that the furniture and 
furnishings are of the highest quality, cabinetry and framing are 
outstanding, and the environment within the Capitol is clean and 
professional.
    Service to the Capitol community was greatly enhanced with the 
implementation of the first phase of the integrated work management 
system that was acquired in April, 2006. This system includes an on-
line furniture catalog, ordering functions, and work order tracking 
capabilities. When fully implemented, the work management system will 
prove invaluable to our efforts to improve customer service and 
response times as we serve our customers in the Capitol.

Printing Graphics and Direct Mail
    We provide photocopying and print design and production services to 
the Senate. The Printing Graphics and Direct Mail (PGDM) department 
continues to provide high level service and customer support to the 
Senate community. In fiscal year 2006, we responded to an increasing 
demand for color publications by using both digital color reproduction 
and traditional full color offset printing. PGDM produced more than 8.1 
million full-color pages utilizing offset presses. Our copy centers 
made over 46 million copies last year. The convenient web-based 
printing ordering service expanded, increasing web-based printing 
requests to more than 3.3 million documents. PGDM staff scanned more 
than 2.4 million Senate office documents for archiving and expanded the 
newest service, CMS Imaging, to scan nearly 350,000 documents, a 207 
percent increase over fiscal year 2005. We saved the Senate 
approximately $800,000, enabled quick turnaround times, and provided 
convenient customer service by producing over 9,000 large format charts 
in-house. In the area of constituent mail, Senate offices saved $1.3 
million in postage expenses as a result of PGDM sorting over 7.2 
million pieces of mail during the first three quarters of fiscal year 
2006. Working with other Senate entities, we also processed 45,000 flag 
requests.
    After years of planning, the new Senate Support Facility in 
Landover, Maryland is fully functional. We manage a storage area for 
other Senate offices including: furniture for Capitol Facilities; 
legislative documents for the Secretary of the Senate; general and 
emergency equipment for SAA IT Support Services; and a book storage 
area that holds publications for distribution to the entire Senate 
community. Substantial increases in efficiency and functionality have 
been realized in this multi-purpose facility, including a cooperative 
arrangement with the United States Capitol Police Off-Site to ensure 
the proper screening of all stored material. This facility has an 
enhanced inventory system for accurate inventory control and 
accountability. A state-of-the-art security system provides controlled 
access to sensitive documents and objects. Other features include 
environmental and climate controls.

Parking Office
    We completed the Senate Transportation Plan for COOP and emergency 
operations and developed a plan to increase the volume of E85/Flex-fuel 
vehicles in the SAA fleet. As part of an ongoing project, we replaced 
gate kiosks on Lots 16 and 19 in cooperation with the AOC. We executed 
the leases for two new 15-passenger shuttle buses that are ADA 
compliant and completed the COOP Driver Emergency Procedures manual and 
all training sessions.

Photo Studio
    The Photo Studio completed the migration of the Photo Browser to 
the latest version of the Asset Manager software. We implemented 
procedures to store Senators' photo images on DVDs for archiving and 
creating index booklets. Additionally, we introduced composite photo 
prints and expanded image retouching and restoration services.

Recording Studio
    We televise the activity on the Senate Floor, as well as Senate 
committee hearings, and we provide a production studio and equipment 
for Senators' use. Last year, we televised all 978 hours of Senate 
Floor proceedings, 907 committee hearings, and broadcast 1,559 radio 
and television productions.
            Committee Hearing Room Upgrade Project
    Demand for additional committee broadcasts has been ever 
increasing. In 2003, we began working with this Committee and the 
Committee on Rules and Administration to upgrade and install multimedia 
equipment in Senate committee hearing rooms. The project includes 
digital signal processing, audio systems, and broadcast-quality robotic 
camera systems.
    To date, we have completed thirteen hearing rooms and have four 
more in the design phase. Room enhancements include improved speech 
intelligibility and software-based systems that we can configure based 
on individual committee needs. The system is networked, allowing 
committee staff to easily and automatically route audio from one 
hearing room to another when there are overflow crowds. Additionally, 
the system's backup will take over quickly if the primary electronics 
fail.
    As part of the upgrades included in our move to the Capitol Visitor 
Center (CVC), we are installing technologies to enhance our ability to 
provide broadcast coverage of more hearings simultaneously without 
adding staff. For example, the Committee Hearing Room Upgrade Project 
will allow us to cover a hearing with one staff member. Before the 
upgrade, three staff members were required to adequately cover a 
hearing. These technology enhancements, coupled with the expansion of 
the number of control rooms for committee broadcasts to twelve, will 
enable us to increase our simultaneous broadcast coverage of committee 
hearings from five to as many as twelve.
            Migration to the Capitol Visitor Center
    The most significant work we anticipate for the Senate Recording 
Studio, over the next year and a half, is its move from the basement of 
the Capitol to the Capitol Visitor Center. This move will enable the 
Recording Studio to complete its upgrade to a full High Definition 
facility, and to implement a number of improvements that have been 
planned to coincide with the opening of the Center. The Studio 
anticipates moving all aspects of its operation, including the 
engineering shops, the Senate Television operation, Studio production 
and post-production facilities, committee broadcast services, and all 
administrative and management offices to the CVC by September 1, 2008.

                               CONCLUSION

    We take our responsibilities to the American people and to their 
elected representatives seriously. The Office of the Sergeant at Arms 
is like dozens of small businesses, each with its own primary mission, 
each with its own measures of success, and each with its own culture. 
It has a fleet of vehicles that serves Senate Leadership, delivers 
goods, and provides emergency transportation. Our Photography Studio 
records historic events, takes official Senate portraits, provides a 
whole range of photography services, and delivers thousands of pictures 
each year. The SAA's printing shop provides layout and design, graphics 
development, and production of everything from newsletters to floor 
charts. The Office of the Sergeant at Arms also operates a page 
dormitory, a hair salon, and parking lots. It provides many other 
services to support the Senate community, including framing, flag 
packaging and mailing, and intranet services. Each of these businesses 
requires personnel with different skills and different abilities. One 
thing that they all have in common, though, is their commitment to 
making the Senate run smoothly.
    Over the past year, the staff of the SAA has kept the Senate safe, 
secure, and operating efficiently. This Committee and the Committee on 
Rules and Administration have provided active, ongoing support to help 
us achieve our goals. We thank you for your support and for the 
opportunity to present this testimony and respond to any questions you 
may have.
              APPENDIX A.--FISCAL YEAR 2008 BUDGET REQUEST
    ATTACHMENT I--FINANCIAL PLAN FOR FISCAL YEAR 2008 OFFICE OF THE 
                 SERGEANT AT ARMS--UNITED STATES SENATE

                                                EXECUTIVE SUMMARY
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                           Fiscal year      fiscal year 2007
                                                              Fiscal year      2008    -------------------------
                                                              2007 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $60,051      $64,443       $4,392          7.3
    Expenses................................................      $67,219      $81,934      $14,715         21.9
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................     $127,270     $146,377      $19,107         15.0
                                                             ===================================================
Mandated Allowances & Allotments............................      $55,630      $58,072       $2,442          4.4
Capital Investment..........................................      $11,711      $17,165       $5,454         46.6
Nondiscretionary Items......................................       $4,640       $5,279         $639         13.8
                                                             ---------------------------------------------------
      TOTAL.................................................     $199,251     $226,893      $27,642         13.9
                                                             ===================================================
Staffing                                                              927          946           19          2.0
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services and equipment, we submit a fiscal year 2008 
budget request of $226,893,000, an increase of $27,642,000 or 13.9 
percent compared to fiscal year 2007. The salary budget request is 
$64,443,000, an increase of $4,392,000 or 7.3 percent, and the expense 
budget request is $162,450,000, an increase of $23,250,000 or 16.7 
percent. The staffing request is 946, an increase of 19.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The general operations and maintenance salaries budget request is 
$64,443,000, an increase of $4,392,000 or 7.3 percent compared to 
fiscal year 2007. The salary budget increase is due to the addition of 
19 FTEs, a COLA, and merit funding. The additional staff will support 
increased demand for services, as well as advancing technologies.
    The general operations and maintenance expenses budget request for 
existing and new services is $81,934,000, an increase of $14,715,000 or 
21.9 percent compared to fiscal year 2007. Major factors contributing 
to the expense budget increase are additional services and locations 
under the IT support contract, $4,054,000; AssetCenter upgrade, 
$1,086,000; maintenance, equipment and supplies for the Alternate 
Computing Facility, $1,057,000; increased bandwidth for Senate internet 
access, $932,000; and maintenance costs related to Enterprise Storage, 
$710,000.
    The mandated allowances and allotments budget request is 
$58,072,000, an increase of $2,442,000 or 4.4 percent compared to 
fiscal year 2007. This variance is primarily due to increases in 
maintenance and procurement of Member and Committee mail systems, 
$1,500,000; and office equipment for Washington D.C. and state offices, 
$683,000.
    The capital investment budget request is $17,165,000, an increase 
of $5,454,000 or 46.6 percent compared to fiscal year 2007. The fiscal 
year 2008 budget request includes funds for hearing room audio/video 
upgrades, $5,000,000; data network engineering and upgrade costs, 
$3,800,000; upgrade of SAN, $2,700,000; modular furniture replacement 
project, $2,000,000; and other smaller projects.
    The nondiscretionary items budget request is $5,279,000, an 
increase of $639,000 or 13.8 percent compared to fiscal year 2007. The 
request funds three projects that support the Secretary of the Senate: 
contract maintenance for the Financial Management Information System, 
$3,958,000; maintenance and necessary enhancements to the Legislative 
Information System, $910,000; and maintenance and enhancements to the 
Senate Payroll System, $411,000.

      ATTACHMENT II--FISCAL YEAR 2008 BUDGET REQUEST BY DEPARTMENT

    The following is a summary of the SAA fiscal year 2008 budget 
request on an organizational basis.

                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                          Fiscal year       fiscal year 2007
                                                             Fiscal year      2008    --------------------------
                                                             2007 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
Capitol Division...........................................      $26,350      $36,780      $10,430          39.6
Operations.................................................      $39,213      $44,372       $5,159          13.2
Technology Development.....................................      $38,679      $52,075      $13,396          34.6
IT Support Services........................................      $79,542      $77,570      ($1,972)         -2.5
Staff Offices..............................................      $15,467      $16,096         $629           4.1
                                                            ----------------------------------------------------
      TOTAL................................................     $199,251     $226,893      $27,642          13.9
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and discussed in detail on 
the next pages.

                                                CAPITOL DIVISION
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                          Fiscal year       fiscal year 2007
                                                             Fiscal year      2008    --------------------------
                                                             2007 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................      $15,449      $16,457       $1,008           6.5
    Expenses...............................................       $7,101      $10,923       $3,822          53.8
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $22,550      $27,380       $4,830          21.4
                                                            ====================================================
Mandated Allowances & Allotments...........................       $3,800       $3,500        ($300)         -7.9
Capital Investment.........................................  ...........       $5,900       $5,900           N/A
Nondiscretionary Items.....................................  ...........  ...........  ............  ...........
                                                            ----------------------------------------------------
      TOTAL................................................      $26,350      $36,780      $10,430          39.6
                                                            ====================================================
Staffing...................................................          281          283            2           0.7
----------------------------------------------------------------------------------------------------------------
The Capitol Division consists of the Executive Office, the Office of Security and Emergency Preparedness, the
  U.S. Capitol Police Operations Liaison, Post Office, Recording Studio and Media Galleries.

    The general operations and maintenance salaries budget request is 
$16,457,000, an increase of $1,008,000 or 6.5 percent. The salary 
budget increase is due to the addition of two FTEs, a COLA and merit 
increases, and other adjustments. The Recording Studio will add a 
Broadcast Technician to coordinate robotic coverage of the new 
committee hearing control rooms, and a Broadcast Engineer is needed to 
maintain and troubleshoot audio systems in multiple hearing rooms.
    The general operations and maintenance expenses budget request is 
$10,923,000, an increase of $3,822,000 or 53.8 percent. This increase 
will primarily fund consulting and equipment purchases in the Office of 
Security and Emergency Preparedness.
    The mandated allowances and allotments budget request for state 
office security initiatives is $3,500,000.
    The capital investments budget request of $5,900,000 will fund 
hearing room audio/video upgrades, $5,000,000; Recording Studio server 
expansion, $700,000; and chamber lighting upgrade, $200,000.

                                                   OPERATIONS
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                           Fiscal year      fiscal year 2007
                                                              Fiscal year      2008    -------------------------
                                                              2007 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $16,799      $18,230       $1,431          8.5
    Expenses................................................       $5,852       $6,027         $175          3.0
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $22,651      $24,257       $1,606          7.1
                                                             ===================================================
Mandated Allowances & Allotments............................      $16,562      $16,665         $103          0.6
Capital Investment..........................................  ...........       $3,450       $3,450          N/A
Nondiscretionary Items......................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $39,213      $44,372       $5,159         13.2
                                                             ===================================================
Staffing....................................................          300          306            6          2.0
----------------------------------------------------------------------------------------------------------------
The Operations Division consists of the Central Operations Group (Director/Management, Parking Office, Printing,
  Graphics and Direct Mail, Photo Studio, and Hair Care Services), Facilities, and the Office Support Services
  Group (Director, Customer Support, State Office Liaison, and Administrative Services).

    The general operations and maintenance salaries budget request is 
$18,230,000, an increase of $1,431,000 or 8.5 percent. The salary 
budget increase is due to the addition of six FTEs, an expected COLA, 
and merit increases. Printing, Graphics and Direct Mail plans to add 
five new FTEs, including two Lead Data Production Specialists, a 
Reprographics Supervisor, and two Service Workers. The Photo Studio 
requests one FTE, a Photo Imaging Specialist, to support increases in 
photo service requests.
    The general operations and maintenance expenses budget request is 
$6,027,000, an increase of $175,000 or 3.0 percent.
    The mandated allowances and allotments budget request is 
$16,665,000, an increase of $103,000 or 0.6 percent.
    The capital investment budget request is $3,450,000. This request 
includes funds for modular furniture replacement in SAA office space, 
$2,000,000; a networked color printer and layout and design server 
replacement, $650,000; replacement of the PhotoBrowser database system, 
$500,000; and three production scanners, $300,000.

                                             TECHNOLOGY DEVELOPMENT
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                           Fiscal year      fiscal year 2007
                                                              Fiscal year      2008    -------------------------
                                                              2007 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $11,930      $13,357       $1,427         12.0
    Expenses................................................      $21,438      $26,199       $4,761         22.2
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $33,368      $39,556       $6,188         18.5
                                                             ===================================================
Mandated Allowances & Allotments............................  ...........  ...........  ...........  ...........
Capital Investment..........................................         $671       $7,240       $6,569        979.0
Nondiscretionary Items......................................       $4,640       $5,279         $639         13.8
                                                             ---------------------------------------------------
      TOTAL.................................................      $38,679      $52,075      $13,396         34.6
                                                             ===================================================
Staffing....................................................          130          140           10         7.7
----------------------------------------------------------------------------------------------------------------
The Technology Development Services includes the Technology Development Director, Network Engineering and
  Management, Enterprise IT Operations, Systems Development Services, Information Systems Security and Internet/
  Intranet Services.

    The general operations and maintenance salaries budget request is 
$13,357,000, an increase of $1,427,000 or 12.0 percent. The salary 
budget increase is due to the addition of ten FTEs, a COLA and merit 
funding for fiscal year 2008. Technology Development requires ten FTEs 
to support the growing demand on IT Security, to meet expanding hours 
and additional requirements for the ACF such as COOP RDR, and to 
eliminate of a backlog of development projects.
    The general operations and maintenance expense budget request is 
$26,199,000, an increase of $4,761,000 or 22.2 percent. This increase 
is due to costs to support increased bandwidth for the Senate Internet 
access, professional services for applications support to AssetCenter 
and TranSAAct, technical support, and maintenance and technical support 
of hardware and software.
    The capital investment budget request is $7,240,000, an increase of 
$6,569,000 or 979.0 percent. Major projects include the SAN Upgrade, 
$2,700,000; data network engineering costs, $2,300,000; data network 
upgrade, $1,500,000; and the centralized back-up system, $680,000.
    The nondiscretionary items budget request is $5,279,000, an 
increase of $639,000 or 13.8 percent. The request consists of three 
projects that support the Secretary of the Senate: contract maintenance 
for the Financial Management Information System, maintenance and 
necessary enhancements to the Legislative Information System, and 
maintenance and enhancements to the Senate Payroll System.

                                               IT SUPPORT SERVICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                          Fiscal year       fiscal year 2007
                                                             Fiscal year      2008    --------------------------
                                                             2007 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $6,492       $6,834         $342           5.3
    Expenses...............................................      $27,217      $32,254       $5,037          18.5
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $33,709      $39,088       $5,379          16.0
                                                            ====================================================
Mandated Allowances & Allotments...........................      $35,268      $37,907       $2,639           7.5
Capital Investment.........................................      $10,565         $575      ($9,990)        -94.6
Nondiscretionary Items.....................................  ...........  ...........  ............  ...........
                                                            ----------------------------------------------------
      TOTAL................................................      $79,542      $77,570      ($1,972)         -2.5
                                                            ====================================================
Staffing...................................................          113          113  ............  ...........
----------------------------------------------------------------------------------------------------------------
The IT Support Services Department consists of the Director, Office Equipment Services, Telecom Services and
  Desktop/LAN Support branches.

    The general operations and maintenance salaries budget request is 
$6,834,000, an increase of $342,000 or 5.3 percent. The salary budget 
will increase due to an expected COLA and merit funding for fiscal year 
2008.
    The general operations and maintenance expenses budget request is 
$32,254,000, an increase of $5,037,000 or 18.5 percent. This increase 
is primarily due to increased maintenance costs under the IT Support 
Contract, $4,054,000.
    The mandated allowances and allotments budget request is 
$37,907,000, an increase of $2,639,000 or 7.5 percent. This budget 
supports voice and data communications for Washington D.C. and state 
offices, $17,535,000; computer equipment, $10,915,000; maintenance and 
procurement of Member and Committee mail systems, $6,000,000; 
procurement and maintenance of office equipment for Washington D.C. and 
state offices, $3,940,000; and the Appropriations Analysis and 
Reporting System, $250,000.
    The capital investment budget request is $575,000, a decrease of 
$9,990,000 or 94.6 percent. The current budget request includes funds 
to help manage constituent e-mail traffic and support new CSS 
applications.

                                                  STAFF OFFICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                          Fiscal year       fiscal year 2007
                                                             Fiscal year      2008    --------------------------
                                                             2007 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $9,381       $9,565         $184           2.0
    Expenses...............................................       $5,611       $6,531         $920          16.4
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $14,992      $16,096       $1,104           7.4
                                                            ====================================================
Mandated Allowances & Allotments...........................  ...........  ...........  ............  ...........
Capital Investment.........................................         $475  ...........        ($475)       -100.0
Nondiscretionary Items.....................................  ...........  ...........  ............  ...........
                                                            ----------------------------------------------------
      TOTAL................................................      $15,467      $16,096         $629           4.1
                                                            ====================================================
Staffing...................................................          103          104            1           1.0
----------------------------------------------------------------------------------------------------------------
The Staff Offices Division consists of Education and Training, Financial Management, Human Resources, Employee
  Assistance Program, Process Management & Innovation, and Special Projects.

    The general operations and maintenance salaries budget request is 
$9,565,000, an increase of $184,000 or 2.0 percent. The salary budget 
increase is due to the addition of one FTE, a COLA, and merit funding. 
Process Management and Innovation requires one Principal IT Specialist 
in System Architecture and Integration to replace an on-site contractor 
providing support and maintenance.
    The general operations and maintenance expenses budget request is 
$6,531,000, an increase of $920,000 or 16.4 percent. This increase will 
fund enhancements of the Senate's Active Directory and Messaging 
Architecture and metro subsidy.
                                 ______
                                 
    Madam Chair and Members of the Committee, I am honored to appear 
before you today to discuss the U.S. Capitol Police fiscal year 2008 
Budget Request. With me today is Phil Morse, Chief of Police.
    Before I begin Madam Chair, I would like to thank the Committee for 
their ongoing support of the men and women of the U.S. Capitol Police. 
Your commitment to their continued and diligent efforts to develop 
better security operations, response forces and law enforcement 
capabilities has significantly contributed to the Capitol Police's 
ability to provide a safe and secure environment for Members of 
Congress, staff, and the general public.
    The Capitol Police Board appreciates this opportunity to appear 
before you. The security challenge confronting the U.S. Capitol Police 
today remains constant and complex. However, it is a challenge that the 
Department successfully manages each day of the year.
    Having been the Chief and now Sergeant at Arms and Capitol Police 
Board Chairman, I am acutely aware of the security challenges that 
confront the men and women of the U.S. Capitol Police. The challenges 
they face are in the magnitude of the mission they perform. The Capitol 
Police stand between those intent on doing harm and those they have 
sworn to protect. The ability of the Congress to perform its mission is 
directly related to the ability of the men and women of the Capitol 
Police to successfully perform their mission.
    The Capitol Police Board works closely with the Department in 
assessing security risks and determining approaches for mitigation. The 
Capitol continues to be foremost symbol of democracy, a prime terrorist 
target. We must always be one step ahead of the terrorist in order to 
be successful. This is a challenge because of cost, balancing freedoms 
and the professional challenge of constant vigilance. Security systems, 
and the infrastructure that supports them, are expensive. The Capitol 
Police have prepared a budget request that reflects the needs of the 
Department in meeting critical security requirements as they are 
currently understood. They have been judicious in the initiatives they 
have included in their request. They have the full support of the 
Capitol Police Board in their efforts, especially in determining the 
number of personnel needed, evaluating threats, maximizing the use of 
technology and working with other agencies.
    The Board will continue supporting the Department in its on-going 
work with the recommendations of the Government Accountability Office 
(GAO) and the new Inspector General.
    As the threat environment changes, or additional mission 
requirements are added the Department will in all probability need 
additional personnel with concomitant costs, space and technology. For 
instance the opening of the CVC is an additional responsibility. Longer 
hours of operation, more visitors or the opening of secured doors have 
the potential to be unfunded mandates.
    Chief Morse and his team are steadfast in their efforts to 
efficiently use their personnel. The men and women of the United States 
Capitol Police (USCP) work hard and often long hours in very difficult 
weather conditions. They have met or exceeded nearly every demand 
placed upon them. There is however a point where we overwork the cadre 
of USCP personnel, sworn and civilian.
    The Capitol Police have done an exemplary job of protecting the 
Congress, its legislative process, Members, employees and visitors from 
crime, disruption or terrorism. I want to offer my thanks to the men 
and women of the U.S. Capitol Police. They coordinate the people, 
organizations, and resources necessary to respond to the variety of 
threats we face today. It is an extremely difficult job to maintain a 
legislative complex that is completely open to the public, while at the 
same time ensuring the safety of the Congress, staff and visitors 
against increased dangers.
    The men and women of the Capitol Police have my greatest respect. I 
know from personal experience that each one considers it an honor to 
protect, serve, and welcome our citizens and people from around the 
world to our Nation's Capitol who come to participate in the 
legislative processes, to witness democracy in action, and partake in 
the history of this unique place. We have a leader in Chief Morse and 
he is assembling a powerful management team.
    Madam Chair, on behalf of the Capitol Police Board, I would like to 
thank you for this opportunity to appear before you today, and for your 
consideration of this budget request.
    I would now like to introduce Chief Morse who will present the 
Capitol Police's fiscal year 2008 Budget in more detail.

                      UNITED STATES CAPITOL POLICE

STATEMENT OF PHILLIP D. MORSE, CHIEF
ACCOMPANIED BY DAN NICHOLS, ASSISTANT CHIEF

    Senator Landrieu. Chief.
    Chief Morse. Good morning Madam Chair, members of the 
subcommittee----
    Senator Landrieu. Can you pull the microphone a little 
closer to you.
    Chief Morse. Good morning, Madam Chair, members of the 
subcommittee. Thank you for the opportunity to appear before 
you today to discuss the United States Capitol Police fiscal 
year 2008 budget request.
    I am honored to have been chosen as the Chief of Police and 
I look forward to continuing the transformation of the Capitol 
Police to a premiere, well managed security law enforcement 
operation that the Congress both deserves and expects.
    After over 21 years in the Department, I have seen 
firsthand how we have changed and grown particularly since 9/11 
and the anthrax incidents. Through all the changes, the United 
States Capitol Police steadfastly maintains our core duty of 
protecting the Congress, its legislative processes, as well as 
staff and visitors, from harm. It is our duty and honor to 
protect and secure Congress so it can fill its constitutional 
responsibilities in a safe and open environment.
    Congressional operations are highly visible targets for 
individuals and organizations intent on causing harm to the 
United States and disrupting the legislative process of our 
Government. It is the men and women of the Capitol Police who 
stand between those intent on causing harm and those who we 
protect.
    Teamwork and leadership are essential qualities of a well-
managed security law enforcement operation and I recognize the 
hard work of all the sworn and civilian staff of the United 
States Capitol Police who exhibit their leadership and 
dedication to teamwork in meeting our mission. It is these 
dedicated individuals, with the support of the Capitol Police 
Board and the Congress, who ensure the safety of members, 
staff, and the millions of visitors each and every hour of the 
day, each and every day of the year--without exception.
    It is the duty of the men and women of the Capitol Police 
to do what is in our power to prevent acts against this body 
and if such acts should occur, to respond appropriately to 
ensure the safety and well being of our stakeholders.
    Madam Chair, I submit the remainder of my testimony for the 
record and I am happy to answer any questions that you may 
have.
    [The statement follows:]

              Prepared Statement of Phillip D. Morse, Sr.

    Madam Chair and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss the United States 
Capitol Police's fiscal year 2008 budget request. I am honored to have 
been chosen as the Chief of Police and look forward to continuing the 
transformation of the Capitol Police into the premiere, well-managed 
security and law enforcement operation the Congress both deserves and 
expects. After over 21 years in the Department, I have seen, firsthand, 
how we have changed and grown, particularly since the 9/11 and Anthrax 
incidents. Through all of the changes, the United States Capitol Police 
steadfastly maintains our core duty of protecting the Congress, its 
legislative process, as well as staff and visitors from harm. It is our 
duty and honor to protect and secure Congress, so it can fulfill its 
Constitutional responsibilities in a safe and open environment. 
Congressional operations are a highly visible target for individuals 
and organizations intent on causing harm to the United States and 
disrupting the legislative processes of our government, and it is the 
men and women of the Capitol Police who stand between those intent on 
causing harm and those we protect.
    Teamwork and leadership are essential qualities of a well-managed 
security and law enforcement operation, and I recognize the hard work 
of all of the sworn and civilian staff of the United States Capitol 
Police who exhibit their leadership and dedication to teamwork in 
meeting our mission. It is these dedicated individuals, with the 
support of the Capitol Police Board and the Congress, who ensure the 
safety of the Members, staff and millions of visitors each and every 
hour of the day, each and every day of the year, without exception. It 
is the duty of the men and women of the Capitol Police to do all in our 
power to prevent acts against this body, and if such acts should occur, 
to respond appropriately to ensure the safety and well-being of our 
stakeholders.
    The employees of the United States Capitol Police are dedicated to 
their work, and thus; we as a team have had significant accomplishments 
in the past year, including:
  --Responding to the Rayburn Active Shooter Incident, the 9/18 armed 
        intruder incident, and the Russell and Dirksen Hazmat 
        incidents;
  --Greeting and screening nearly 7 million staff and visitors, 
        coordinating over 2,600 VIP notifications from visiting 
        dignitaries, screening nearly 76,000 vehicles and 78,000 
        individuals at the Capitol Visitor Center as work proceeded 
        uninterrupted; and responding to and investigating nearly 300 
        suspicious package incidents, investigating over 3,000 threat 
        and direction-of-interest cases against Members of Congress and 
        other congressional officials;
  --Providing incident-free protection to congressional Leadership and 
        visiting officials, which included five visits by the 
        President, 33 visits by the Vice President, and 69 visits from 
        heads of state;
  --Planning, preparing, coordinating and executing police services for 
        multiple National Special Security Events, as well as 
        emergencies affecting the U.S. Capitol complex. These included 
        the lying in state of former President Gerald Ford, the 
        President's State of the Union address, the lying in honor of 
        civil rights activist Rosa Parks, Supreme Court confirmation 
        hearings for Chief Justice John Roberts and Associate Justice 
        Samuel Alito; as well as the Million More Movement, the Peace 
        Officers' Memorial Day Service; the National Memorial Day, 
        Labor Day and 4th of July Concerts;
  --Developing a real-time backup information technology and 
        communications capability, which will provide critical command 
        and control functionality within minutes of a failure at United 
        States Capitol Police Headquarters;
  --Developing and implementing a comprehensive Internal Controls 
        Program within the Department and conducting initial internal 
        controls assessments and enhanced processes to better control 
        and manage the Department; and
  --Implementing a new financial management system to provide better 
        accountability and control over financial operations of the 
        Department as well as implementing the first phase of an asset 
        management system, which will allow better tracking of assets 
        and inventory.
    In this ever-changing threat environment, the U.S. Capitol Police 
accomplishes its mission through varied and complementary functions to 
provide round-the-clock protection to Congress. In an effort to 
maintain the flexibility of Department operations and maintain 
operational readiness, the United States Capitol Police, with the 
support of Congress, has made significant investments in human capital 
and Department infrastructure. We have concentrated our efforts on 
augmenting our intelligence capabilities and coordination among the 
intelligence community; hardening our physical security and counter-
surveillance capabilities; automating antiquated security and 
administrative support systems; enhancing our detection and response 
capabilities for explosive devices, as well as chemical and biological 
agents; and augmenting our incident command and emergency response and 
notification systems. The initial investments in these important areas 
were significant, and these capabilities require substantial resources 
for maintenance in order to ensure that our systems are operational at 
all times. The majority of these infrastructure investments were funded 
with emergency, supplemental funds or reprogrammed prior year funding 
and now require annual, on-going operational maintenance and life cycle 
replacement.
    The United States Capitol Police budget for fiscal year 2008 is 
$299.1 million, which includes personnel costs of $237.1 million and 
non-personnel costs of $62 million. Compared to the fiscal year 2007 CR 
level of $255.6 million, there is an overall increase of $43.5 million 
(17.0 percent).
    Over the past several years, Congress has generously allowed us to 
significantly augment daily operating costs through the reprogramming 
of existing unobligated balances. As a result, our annual appropriation 
for general expenses does not reflect the actual annual operating 
requirements that the Congress has authorized to be spent in a given 
year. It is important to recognize that while Congress has been 
generous in its support of the USCP through creative mechanisms to 
provide critical resources, these one-time financing sources are nearly 
depleted. Our fiscal year 2008 request provides permanent annual 
funding for critical requirements of the Department and reflects our 
anticipated annual requirements to operate the Department in fiscal 
year 2008.
    The Congress has made the commitment through resources and policy 
support to create a formidable Police Department with diverse 
capabilities designed to deter or respond to any threat to the Capitol 
Complex. Over the last five years, the Department has grown in human 
capital, security infrastructure, command and control, and security and 
law enforcement capabilities. The intent of this budget request is to 
address targeted civilian manpower needs and the annual sustainment of 
the Department's capabilities, which have been sourced through a 
variety of means. From a manpower perspective, the Department is 
continually reviewing its operational concept to determine the most 
effective manner in which to conduct operations. The intent of this 
effort is to be as effective and efficient as possible. In an effort to 
maintain and further develop a culture committed to excellence, the 
Department has engaged an outside entity to evaluate our operations as 
they relate to operational staffing and human capital management. This 
year-long study will assess every aspect of USCP operational sworn and 
civilian manpower management and will provide feedback and 
recommendations for operational alternatives for maximizing manpower 
while enhancing congressional security. Final results of the assessment 
are expected in October 2007.
    New initiatives in our fiscal year 2008 budget request include 
additional personnel resources for both sworn and civilian; security 
for the fiscal year 2008 Republican and Democratic Conventions; funding 
for the biennial promotions process; costs of the transfer of functions 
from other agencies; essential maintenance and life cycle replacement 
of security and information technology infrastructures as well as 
maintenance related to our aging radio system. The following represents 
a more detailed look at the United States Capitol Police fiscal year 
2008 request.
    Personnel.--The personnel portion of the request, $237.1 million, 
supports the current authorized FTE level of 1,671 sworn and 414 
civilians as well as mandatory cost increases for COLAs, promotions, 
within-grade increases, annualization of fiscal year 2007 positions, 
health benefit and retirement costs and an additional 10 FTEs for 
Library of Congress (LOC) attrition, and 30 civilian FTEs. The new LOC 
officers would bring the fiscal year 2008 sworn FTE level to 1,681, 
while the civilian FTE level would increase to 444 for a total 
Department FTE level of 2,125.
    Included in the personnel budget is a request for overtime. 
Staffing levels are driven by security needs and are augmented with 
overtime to meet critical security requirements. The requested overtime 
of approximately $23 million is made up of approximately 460,000 hours. 
There are three main contributors to fiscal year 2008 estimated 
overtime increases over fiscal year 2006/fiscal year 2007.
  --Increased pace/workload of the Congress;
  --Support for the Democratic and Republican National Conventions; and
  --Additional workload to maintain security equipment.
    Non-Personnel.--The fiscal year 2008 request for non-personnel 
items is $62 million to support Capitol Police responsibilities for law 
enforcement, Capitol complex physical security, dignitary protection, 
intelligence analysis, crowd control, information technology, hazardous 
material/devices and other specialized response as well as logistical 
and administrative support.
    There are several factors affecting the rate of increase in the 
fiscal year 2008 Budget Request. First, in fiscal year 2006, the United 
States Capitol Police received authority for reprogramming of 
approximately $4.6 million into the General Expenses appropriation to 
fund fiscal year 2007 operating expenses. This made the total available 
amount for fiscal year 2007 General Expenses approximately $43.1 
million, which was the approximate spending for fiscal year 2006 
operations. In fiscal year 2008, the USCP seeks permanent funding for 
these forward funded items as well as additional resources to support 
the Democratic and Republican conventions, the biennial promotions 
process, the maintenance of security and other systems previously 
purchased with annual and no-year funds and to make critical 
maintenance investments in IT infrastructure. The major increases for 
the non-personnel request for the United States Capitol Police 
includes:
  --$8,163,600 is for Information Systems.--Information systems 
        increases are related to contractor support for the radio 
        system previously transferred from the Senate as well as costs 
        for command center maintenance, communications support 
        activities, licensing and support of new systems, life cycle 
        replacement and repair of computer equipment and peripherals.
  --$4,193,620 is for Security Services.--Security services' increases 
        relate to the maintenance contract and other items that were 
        forward funded, and life cycle replacement items.
  --$4,641,500 is for Protective Services.--Protective services' 
        increases are primarily related to convention support for the 
        Democratic National Convention (DNC) and Republican National 
        Convention (RNC). The DNC and RNC are scheduled for August 2008 
        and September 2008 respectively.
  --$2,218,500 is for Human Resources.--The human resources increases 
        include an increase for the National Finance Center computer 
        programming for workers' compensation and time and attendance 
        upgrades, the sworn promotion process contract (occurs every 
        two years), funding for the tuition reimbursement program, as 
        well as the addition of a system module for sworn manpower 
        scheduling that is expected to improve the efficiency of 
        scheduling the 1,671 sworn manpower assets that are currently 
        managed through a manual process.
  --$1,358,500 is for Logistics.--Increases for logistical operations 
        consist of uniform refreshment, outfitting the Practical 
        Applications Center at Cheltenham, MD, and vehicle repairs, 
        service and maintenance.
  --$1,385,500 is for Planning and Homeland Security.--Increases to 
        Planning and Homeland Security consist of the security control 
        operator's contract, which was forward funded.
  --$585,400 is for Financial Management.--Increases to financial 
        management are attributed to increased costs for the financial 
        management system, continuation of the help desk, and 
        contractor support for accounts payable.
  --$177,680 is for Training Services.--Increases to training services 
        include costs related to role players for training exercises at 
        the Practical Applications Center in Cheltenham, MD and 
        training for instructors requiring certification.
  --$771,700 represents increases to other areas of the department that 
        primarily support newly requested personnel, increases 
        requested by the Office of Inspector General, as well as minor 
        increases to training, contractor services, and supplies.
    The U.S. Capitol is still faced with numerous threats, including a 
vehicle-borne explosive attack, terrorist-controlled aircraft attack, 
armed attacks on the Capitol Complex, suicide bombers or positioned 
explosive attacks, chemical, biological and/or radiological attacks, 
and attacks on Members and staff as well as ordinary crime. To 
accomplish this mission, the Department will continue to work 
diligently to enhance its intelligence capabilities and provide a 
professional 21st Century workforce capable of performing a myriad of 
security and law enforcement duties, supported by state-of-the-art 
technology to prevent and detect potential threats and effectively 
respond to and control incidents. With the help of Congress and the 
Capitol Police Board, the Department will continue developing 
professional administrative capabilities based on sound business and 
best practices, while raising the caliber and capability of its sworn 
and civilian personnel.
    The United States Capitol Police must maintain the ability to be 
prepared for any situation. The attainment of that goal depends, in 
part, on having the right strength and the numbers of well-trained and 
prepared people, organized into an effective and flexible blend of 
capabilities and skills. The Department continues to prepare and train 
officers by holding Department-wide intelligence briefings when 
significant or critical information is gathered; disseminating 
intelligence and tactical information in daily roll-calls, and 
conducting field and table-top exercises in efforts to equip officers 
with the necessary tools to do their jobs. Additionally, the 
Department's officials routinely participate in a wide-range of table-
top exercises with top experts from Federal, state and local law 
enforcement.
    As Chief of the Capitol Police, I take great pride in the 
accomplishments of the men and women of the Department. We at the 
United States Capitol Police look forward to working collaboratively 
with the Congress to continue to safeguard the Congress, staff, and 
visitors to the Capitol Complex during these challenging times.
    I thank you for the opportunity to appear here today and am ready 
to address any questions you may have today.

            <greek-l>SAA deg.SECURITY ON THE CAPITOL CAMPUS

    Senator Landrieu. Thank you very much. I do have some 
questions and I would like to begin. We'll do probably 5-minute 
rounds and just see how the time goes.
    Mr. Gainer, I have spoken with you about this issue several 
times and I want to address this issue in my first question. 
Too many Members have expressed to me a concern about turning 
the Capitol into an armed encampment and while we want to be 
very careful and understand the need to step up security, we 
understand the breaches that have occurred and why it is 
important to make it secure.
    We also want to balance the need for security with the 
openness that we need to do our work effectively and 
efficiently throughout the day as well as keep the spirit of 
the Capitol, which is very important, a spirit of openness, 
trust, and friendliness actually. So it is a very difficult 
balance. When people go into maybe a courthouse or they go into 
another Federal building, I don't think they expect openness 
and friendliness. But they do expect openness when they come 
here to the Capitol, that they own. This is their Capitol, it's 
a symbol of their democracy. There is a lot about this building 
that's very different than any other Federal building that we 
protect and secure. So achieving that balance here is very 
important to me. Can you explain how you're trying to reach 
that balance, if that is an objective of yours? Do you share 
that or do you have questions or disagreements about that?
    Mr. Gainer. I certainly don't have any disagreements. Both 
Chief Morse and I are united in our belief as is the Police 
Board, about the necessity to keep the Capitol open and very 
viable. Over the 4 years I had the chance to lead the Capitol 
Police, I think the men and women went out of their way to be 
both welcoming and helpful even as they stood ready to ward off 
someone who might attack.
    In both of our opening statements, we concentrate on the 
antiterrorism approach, but there will be some 12 to 15 million 
visitors to Capitol Hill, as well as the 30,000 employees for 
which everything is really pretty seamless as they come 
through.
    I think with the proper mix of technology and making that 
technology nearly invisible to everybody; with having men and 
women of the Capitol Police understand their roles; and with 
the Senate Sergeant at Arms staff, whether it is the doorkeeper 
or the appointment desk or the people cleaning the floors, 
greet visitors and make them feel comfortable, we can achieve 
that balance of security and openness. But we are not going to 
be able to take away, for instance, the heavily armed offices 
on the Senate side of the east front.
    The opening of the CVC, which as I said is actually more 
work because there are more doors to be manned, will increase 
the flow of people and make it seamless as we go in. But we do 
need to be vigilant.

        <greek-l>SAA deg.U.S. SECRET SERVICE SECURITY ASSESSMENT

    Senator Landrieu. Okay. The U.S. Secret Service recently 
completed a security assessment of the Capitol complex and made 
recommendations regarding the security of the complex. Can you 
describe the scope of this assessment? Did it include the 
entire complex or the Capitol Building only? How are you 
collaborating with the Capitol Police to address the 
recommendations made? What is the timeframe for addressing 
these recommendations? I'm assuming that some of this review 
was classified, but what is not classified, if you could share 
with us, I'd be appreciative.
    Mr. Gainer. From a macro view, let me say that the survey 
that was requested by the Police Board, at the direction of the 
committees, really covered the Capitol Square complex more than 
it did the office buildings. If we just put that one aside for 
a moment, there have been ongoing and other studies of the 
other buildings and we haven't cast those aside. As to this 
particular Secret Service study, which is a classified 
document, the Police Board has directed the Department and each 
member of the Police Board, the House Sergeant at Arms, myself, 
the Architect of the Capitol and Chief Morse, to put together a 
working group to review that security survey and categorize its 
findings into action items that can be done today, mid-term, 
and then longer term.
    Looking at it from a people point of view, a technology 
point of view, and a cost point of view, at the direction of 
Chief Morse, as that study was conducted some issues were 
identified that could be fixed immediately and some have been 
implemented. There were about 200 recommendations and we're 
working collaboratively with the Architect of the Capitol and 
the members of the Police Board to implement them.
    I brought on board retired Chief Ramsey from the 
Metropolitan Police Department, a 37-year veteran of law 
enforcement--he's the chairman of the International Association 
of Chiefs of Police, Homeland Security and he has studied and 
consulted in Northern Ireland, England, and Israel. So I think 
with Chief Ramsey and along with the members from Phil's team 
and the other members of the Board, we're in good stead to 
analyze the recommendation and implement as we can.
    Senator Landrieu. Okay. I'm going to review some of those 
recommendations and, of course, the Senators have clearance to 
do so. But we want to be sensitive that the Secret Service's 
primary mission is to guard the life of the President and to 
keep the White House safe. The White House is not the People's 
House, it's the President's house. But the Capitol is the 
People's House and the Secret Service has to understand while 
we're very happy to have their recommendations, and we will 
absolutely take them seriously, it is not the same thing 
guarding the White House as guarding the Capitol.
    Mr. Gainer. Yes ma'am.

           <greek-l>SAA deg.RISK AND VULNERABILITY ASSESSMENT

    Senator Landrieu. I understand you have efforts underway to 
assess the risk and vulnerabilities, including the Senate's 
State Office Preparedness Program. To what extent are the 
results of these assessments shared with the Capitol Police who 
might also benefit from the results of these assessments?
    Mr. Gainer. The work that portion of the office does is 
very much done in coordination and cooperation with the Police 
Department. Several of Chief Morse's people are actually 
involved and do some of the onsite work. So it is 
collaborative. When we are looking at the physical security, we 
also discuss continuity of their own operations and continuity 
of the Government from their perspective. We do work closely 
together with the police. We try to make it as seamless as 
possible. We consult with some of the experts on Chief Morse's 
team because of their expertise on physical security. So we are 
linked and will continue to be so.

       <greek-l>SAA deg.TELECOMMUNICATIONS MODERNIZATION PROGRAM

    Senator Landrieu. This subcommittee has provided over $20 
million in funding for telecommunications modernization. While 
I agree these upgrades were needed, I'm curious to know what 
the program entails and where we are with this particular 
program. It's a considerable amount of money. Why is it 
necessary? Where are we? What are our goals and objectives?
    Mr. Gainer. The telephone modernization program was one of 
the things I asked about during my first couple of days as 
Sergeant at Arms. I had just come from a corporation, L3 
Communications, where we had voice over Internet protocol and I 
saw the magic of that system, which is used in most major 
corporations across the United States to link computer work, 
telephone calls and scheduling and meetings.
    I understand we're about 10 percent into the design phase 
of that program and over the next 12 months the design will be 
completed. The contract was left to the vendor to do that. The 
upgrade program will affect our telephone switch, the blue 
button phones that the Members use, and the audio-
teleconferencing group alert, and voicemail systems. It really 
will bring the Senate community into the overused phrase--``the 
21st century.''
    I know that our CIO is concerned about introducing it, and 
making sure that the training for the community is available. 
Again, with my limited experience in the corporate world, I 
think people will be bedazzled and wonder why we didn't do it 
sooner.

      <greek-l>SAA deg.IMPACT OF THE CAPITOL VISITOR CENTER DELAY

    Senator Landrieu. Thank you. The subcommittee has spent a 
lot of time over the years performing oversight on the Capitol 
Visitor Center construction project. It now appears that the 
opening date has been delayed again to the spring or early 
summer. Will this further delay in opening have any impact on 
the operations of your office?
    Mr. Gainer. Indirectly, it may be a bit more costly because 
the movement of our studios into the CVC has been contracted 
out and I understand we have to re-evaluate our moving plans 
because of the delays. We are adjusting for that. The delays 
are actually having a domino effect on the movement of some of 
our offices to the CVC. We're trying to be efficient in Postal 
Square, and some of the offices ultimately will be moved from 
there and to the CVC. It is something we are on top of. It is 
not inexpensive. The delay might cost an additional $1.5 
million or $2 million to adapt our plans to the new time line. 
But we're aware of the delay and we're working on it.
    Senator Landrieu. Okay and Chief, I will ask you one 
question and then shift to Senator Allard and then we will go 
to a second round if we need to.

       <greek-l>CPB deg.GOVERNMENT ACCOUNTABILITY OFFICE REPORT 
                            RECOMMENDATIONS

    In response to the GAO report on your efforts to improve 
management, and I know this is a focus of yours, please update 
us in a little bit more detail than you did in your opening 
statement about the status of your efforts to implement some of 
GAO's specific recommendations and what your specific timeframe 
is for addressing all of the outstanding recommendations that 
this report has indicated?
    Chief Morse. Thank you, Madam Chair. First, I also have the 
same concerns as you do in the information that was contained 
in the GAO report. What we are doing is very aggressively 
working to extract the things we need to work on and prioritize 
them. What has helped us do that is the inspector general as 
well as the CAO's office are working very hard to remedy that 
situation.
    We have put in place an internal controls process, which is 
helping us manage and meet the performance measures that we 
need to accomplish that goal. We are assessing each process 
that we do in bringing forward best business practices, 
repeatable, and validated processes, so that we don't continue 
to go down this path.
    The timetable that we plan to sort of connect the dots and 
bring all this together is really dependent on how well we 
complete the things we're doing in the Office of Financial 
Management.
    Asset inventory--we have a human capital plan. We have a 
manpower study so we are incorporating all of those things into 
an action plan that Mr. Stamilio, our CAO, has put together.
    Connecting the dots--and we hope to be able to do this, a 
great deal of the most important issues by the end of this 
fiscal year. So as we meet today, we are meeting with GAO 
across the street. We have established a relationship with 
them. We have put our people together in a very cooperative 
effort to resolve the issues and they have been extremely 
helpful.
    The final thing is, there is accountability and I have put 
in place, along with the Assistant Chief and our CAO, 
accountability at all levels. And accountability also includes 
perhaps even personnel changes. So we are very aggressively 
working on this. We understand the concerns and we understand 
the importance of getting our management in order.
    Senator Landrieu. Thank you. Senator Allard.

              <greek-l>CPB deg.DEPARTMENTAL ACCOUNTABILITY

    Senator Allard. Madam Chair, I'm going to follow up with 
Chief Morse since we are on that subject. I really think for 
management by objectives to work, every police officer has to 
buy into that and I think every division inspector that you 
have, has to buy into it and has to work with each sponsor. I 
think both the Chair and I would like to see us be able to do a 
lot for the Police Department but in order to get our 
colleagues to understand, we have got to have this 
accountability and assurance that things are managed well. It 
is easier then for them to approve some sizeable increases.
    I'm not denying we don't have some problems there and I 
think you've got a horrendous job ahead of you because other 
people before you have not been that successful in pulling 
things together. So I think you really have to get everybody to 
buy into it.

        <greek-l>SAA deg.SENATE SERGEANT AT ARMS STAFFING LEVEL

    I'd like to ask a few questions to you, Mr. Gainer. You've 
identified in your own remarks the increase in employees that 
you've requested of 19 and the Chairwoman has mentioned it. It 
is a sizeable increase. I understand that there are issues that 
are driving this--security issues, the CVC, technology.
    When do you see this annual staff increase plateauing and 
when can we begin to say okay, we're where we should be. We've 
taken care of our security needs and everything. Do you have 
any idea when we might reach this plateau?
    Mr. Gainer. Senator, I think we're close but strangely 
enough, at least for an old sociologist street guy like myself, 
technology seems to keep driving the need for more people. I 
think there is a thought sometimes that when you introduce 
technology, you can remove the person, but when we keep 
increasing the technology, we are adding complexity and there 
will be a need for more people to maintain and support that 
technology.
    When I went over this budget upon arrival here, I sat down 
with my staff and asked a very similar question and no one said 
that this was it and I can't tell you that it is. I think as we 
get the recording studio up and running or printing and 
graphics and our network engineers implement the voice over IP 
protocol, it will be close.
    Technology will require additional people. Having said 
that, I also ask if we improve technology and do away with the 
human element--does that mean we can attrite those people out 
or lose those positions? And what we are trying to do where 
increased technology requires more staff, is to train existing 
staff and bring them up to speed. So I don't see an end in 
sight. I hope it will moderate in the future.
    Senator Allard. Well, thank you and I recognize the 
challenges you face as far as technology. At some point here, 
SAA should begin to level off.
    Mr. Gainer. I think that is a good point. I think we will 
be getting close to leveling off.

            <greek-l>SAA deg.SECURITY IN THE CAPITOL COMPLEX

    Senator Allard. Very good. I would also follow up on Madam 
Chairwoman's comments on security, the degree of security we 
have around here. I think most Members of Congress are fairly 
comfortable with a lot of the security that you have to have.
    The one thing that really raises their ire on my side of 
the aisle and I think on her side of the aisle too, is if 
anybody mentions a fence around the Capitol. That has been 
mentioned before and I've had to deal with it in my conferences 
and I'm sure it has been brought up in her conference too and 
that just brings everyone up off their chair. I know there is a 
fence around the White House, but it's not something that would 
be acceptable here so we have to look at other ways in order to 
secure the Capitol.

     <greek-l>SAA deg.SERGEANT AT ARMS COMPREHENSIVE STRATEGIC PLAN

    Last year, your predecessor, Bill Pickle, testified that 
the Sergeant at Arms was working on developing a comprehensive 
strategic plan. Can you describe how your office uses 
performance measures to ensure it is meeting the needs of its 
clients in a cost-effective and service orientated manner?
    Mr. Gainer. Yes sir, I can. In fact, we left at your desk 
place, our strategic plan that was developed under Bill 
Pickle's guidance and by many of the people sitting behind me. 
And I will note, if I may, on page 11 you'll see an example of 
how we've taken performance and accountability very seriously 
and then tied in an example of our performance metrics.
    So we have the main strategic points, which are then broken 
down into the different divisions, and down to section levels 
where those performance levels and metrics of success are 
indicated. For instance, in the human resources section, 100 
percent of employee performance evaluations will be completed 
on time. In technology, the help desk and computer customer 
satisfaction will be a minimum of 95 percent, or accurately 
sorting and delivering mail from the Postal Service on the day 
it clears testing will be 100 percent.
    This is but an example of how we are implementing our 
straightforward strategic plan to turn our vision and mission 
into concrete performance goals with realistic measurement 
standards and tools. We do take this seriously.

    <greek-l>SAA deg.ROLE OF FORMER METROPOLITAN POLICE CHIEF RAMSEY

    Senator Allard. Well, thank you. I think that is a step in 
the right direction and I urge you to continue those efforts. 
Also, I understand that you've hired former D.C. Chief Ramsey. 
Would you share with me what he will be doing, again without 
compromising security, give us an overview of what he will be 
doing.
    Mr. Gainer. Yes, Senator and Madam Chair. One of the major 
duties he is performing is a review of the Secret Service study 
that we mentioned earlier. Chief Ramsey, in his capacity of 
working for me and, I, in my capacity as the Board Chair, are 
the coordinators of the Board's effort to take that plan and 
see what is viable, what would work here, what needs to be 
implemented, has already been implemented, or can be 
implemented in 30 days, 90 days, or 120 days and how it may 
affect the budget.
    His major contribution will be to concentrate on that 
security plan, but also he's already engaged with the Capitol 
Police and others to review a number of the other studies that 
have been undertaken.

          <greek-l>SAA deg.PRIORITIES OF THE INSPECTOR GENERAL

    Senator Allard. Thank you. Do you have the inspector 
general with you today?
    Mr. Gainer. We do have him, Carl Hoecker.
    Senator Allard. I would like to ask him a question, if I 
may.
    Mr. Hoecker, you've been on board now since July. The 
inspector generals are the eyes and ears of the Members of 
Congress.
    Mr. Hoecker. Yes, sir.
    Senator Allard. So the reason we put inspector generals in 
the various agencies is so that we know what is going on as far 
as management issues, and fraud, waste and abuse. I'd like to 
hear from you as to your priorities and what you see as the 
biggest challenges facing the United States Capitol Police?
    Mr. Hoecker. If I can, I would just kind of read from the 
notes here that kind of, in case this happened then I think it 
will answer your question, sir.
    As you've said, I've been on since July. In these 9 months, 
the OIG has done the following major items. We hired staff, 
established administrative systems and processes to manage the 
OIG, developed a strategic plan that is linked to the 
Department's strategic objectives, we have an annual work plan, 
which is on track and that annual work plan is where we focus 
on our priorities, sir.
    In October we developed the first semiannual report to 
Congress and we've identified management challenges for the 
Chief, which the Chief has factored into his priorities for the 
Department.
    We have issued three full reports and we have four ongoing 
projects right now. The management challenges, the first of the 
top three, financial management, human capital, and security. 
I've had discussions with the Chief on a weekly basis in terms 
of how best I can positively help the organization more up 
front than consultative type arrangements working on business 
processes improvements as I'm walking through the organization 
in that type of an arena, sir.

            <greek-l>SAA deg.SEMIANNUAL CONGRESSIONAL REPORT

    Senator Allard. It is my understanding there was not as 
much substance as we would like in your semiannual report. I 
would urge you to give us more detail of what you are finding 
and what your recommendations are. That is real important, 
particularly as we are focusing more on financial 
accountability within the Capitol Police.
    Mr. Hoecker. Yes, sir.

           <greek-l>CPB deg.CHIEF MORSE'S DEPARTMENTAL VISION

    Senator Allard. Chief Morse, again I want to congratulate 
you on your position. Can you describe your vision and plans 
for the agency and tell us whether you intend to make any 
significant changes to how the agency operates?
    Chief Morse. Thank you, Senator. My vision for the Police 
Department is to build on the very strong foundation that we 
have in place from my predecessors. We're working toward being 
a premiere law enforcement agency and in order for us to do 
that, initially, we're trying to--or my vision is and you 
talked about inclusiveness earlier and we have put this vision 
out from the top down and that is to instill the core values of 
the Police Department--to be unflinching, sincere, courteous, 
and principled.
    With that, we marry that up with the best business 
practices and repeatable processes, internal controls and we're 
linking that with our strategic plan and our business plans to 
ensure that we're doing the things necessary to take care of 
our people and to make the best security for the complex 
itself.
    We're going to be concentrating our efforts this year on 
connecting those dots and working with the inspector general 
and our CAO. We hope to meet those major challenges that we've 
identified in the GAO report as well as the ones that we're 
identifying.
    What is most important is the inclusiveness of everyone in 
the organization. One of the things I did initially was to 
establish an executive management team, a senior management 
team and first line supervisors' and officers' management team. 
Everything that we are doing, everything that we are 
evaluating, each one of the studies that we are conducting is 
inclusive of everyone from the top down. I believe that meets 
your challenge that everyone be on the same page.
    With that, we're also improving our relationships not only 
with the community and stakeholders, but also with Members of 
Congress. I meet routinely and I've met with you and have had 
very good discussions. I meet with Mr. Gainer and Mr. Livingood 
routinely and we also have an effort to reach out to our 
community with our Community Outreach Program.
    So we're being very inclusive of everyone and we're being 
professional in that we're establishing business processes for 
everything that we do, we're measuring our success, we're 
holding people accountable and we're ensuring that our 
stakeholders are well informed of what we're doing all the way.

                <greek-l>CPB deg.NEW CIVILIAN POSITIONS

    Senator Allard. The additional 30 civilian staff you have 
requested include four for the Office of Financial Management. 
Is this enough to stabilize this office and address completely 
the GAO recommendations and complete a full financial audit?
    Chief Morse. There was a study that was conducted on 
manpower within the Office of Financial Management and 
realizing some of the fiscal restraints we were being measured 
in our requests for four. I believe the actual number was eight 
that the process brought about, but we're working with four. 
But the way I feel about it is we need to get in there and make 
these corrections that need to be made in order to get a better 
assessment of where we are, so we want it to be very measured 
in asking for people for that area.
    Senator Allard. So four is going to get you started, but at 
some point in time you may have to have an additional four. Is 
what you're stating?
    Chief Morse. Well, there certainly could be a possibility 
that we could ask for more people. I would hope that we would 
be able to instill the internal controls that we need, make the 
changes and put the accountability there so that we get the 
most effective and efficient use of the people that we have.

 <greek-l>CPB deg.CIVILIAN POSITIONS IN OFFICE OF FINANCIAL MANAGEMENT

    Senator Allard. How many people do we have in that office 
now?
    Chief Morse. The specific number--27.
    Senator Allard. In the Office of Financial Management you 
have 27?
    Chief Morse. Yes, sir.
    Senator Allard. So these four that come in--what will they 
be doing?
    Chief Morse. Let me just take a quick look and I can give 
you the breakdown. The request is for two in accounting and two 
in budget.
    Senator Allard. Is that going to be enough in that area for 
you to meet the GAO recommendations?
    Chief Morse. For the budget and accounting portion, yes. 
The additional four are in other areas of financial management 
but we saw these as the priorities to help us with the 
challenges that we currently have.

         <greek-l>CPB deg.MANAGING VISITORS TO THE U.S. CAPITOL

    Senator Landrieu. Let me follow up with just a couple of 
thoughts here. Getting back to the notion of making this 
building work for everybody that uses it, from Members to 
staff. I know lobbyists have a bad name but they actually do 
good work here by bringing issues to Members and representing 
our constituents. They are in and out of this building all the 
time.
    There are tour groups that come regularly and then there 
are the occasional tour group, the groups like Close-Up that 
every year bring thousands of young people because we see them 
in our offices. Before I was a Senator, I actually came up as a 
Close-Up student. So I look forward to meeting the Close-Up 
groups all the time. Then there are any number of other 
organizations.
    Just as an observer, as I'm moving around the Capitol 
complex, I notice particularly in the spring, the March/April, 
May, and June, the very long lines of people trying to get into 
the building. Are we making any plans or do we have any ideas 
about how we could sort in a better way, the visitors? Not to 
stratify them but to allow the people that are working staff 
professionals, to move a little more quickly. Obviously the 
students and the tourists who are not on direct assignment can 
move a little differently. Have we ever thought about that? Or 
is it just a matter of manpower? Mr. Gainer, do you want to 
take that, or Chief Morse?
    Mr. Gainer. Go ahead and start.
    Chief Morse. Well, I think with the CVC coming on board, 
there is a lot of effort and signage and people hired to give 
direction and move people. It is a centralized point of 
screening for us, which helps security but it's also a much 
easier access point than we find here in some of the buildings.
    We have very tight access points and spaces, which I think 
contribute to a lot of the slow down in processing. Certainly 
officers work very hard at processing people into the buildings 
and the technology we have is the best in the world. So I think 
there is probably more effort in signage and direction and 
perhaps even some changes in the locations that we bring people 
in.

                <greek-l>SAA deg.VISITOR STRATIFICATION

    Senator Landrieu. Well, I just want to press this issue and 
I'll do this here and continue to work with you all on it. Have 
we developed a difference between a casual visitor and a 
business visitor? Yes or no?
    Mr. Gainer. Well, there have been discussions about 
stratification. Over the years, we've all discussed the fact 
that, on some days, it seems strange that we would give as much 
scrutiny to a person who has been employed here for 25 years as 
someone who might visit for 1 day. There were discussions about 
whether there would be a frequent visitor procedure, similar to 
that the FAA and TSA are using. But even as to staff, when you 
start thinking that staff can be treated one way and visitors 
another, we have a circumstance, not more than 1 week ago, 
where we had a gun being brought in by a staff member, 
inadvertent as it may have been. So it just makes everyone 
pause as to how different procedures for staff and visitors 
could work.
    Senator Landrieu. I agree and I'm not actually suggesting 
that because I don't agree that there should be different 
levels of security. But I'm suggesting that there might be 
different lines with similar security. Identical security 
required, but waiting in line for a casual visit for 45 minutes 
is not a problem for a Close-Up student. It is a major problem 
for a constituent that has a scheduled meeting with a Senator 
or a House Member, led by a mayor of whatever town, large or 
small or a meeting. People are having difficulty getting to 
their meetings. Now, not to say that students should be second 
class--please, don't anyone interpret what I'm saying and I am 
also not saying that there should be different levels of 
security. I think there should be very serious security.
    But as this visitor center opens, I'm going to work with 
Senator Allard and our other members to see if there is a way 
that we can make the work of the people more efficient. For 
everybody that has to wait in line 45 minutes, there is 
somebody else at the other end sitting and waiting for them. 
Schedules are getting mixed up all through the Capitol.

                   <greek-l>SAACPB deg.TUNNEL ACCESS

    The other question is, I understand that you used to be 
able to walk from under the House to the Senate and vice versa 
and that access has been closed off. Is that correct, the 
tunnel has been closed off?
    Chief Morse. That is correct. You cannot move from the 
House side to the Senate or vice versa.
    Mr. Gainer. Unless you have an appointment. If there is an 
appointment, there is a process, that if you are on one side 
and have an appointment on the other side, for the appointment 
desk, to verify that appointment and then let you pass through.
    Senator Landrieu. Okay, so if you do have an appointment, 
you can pass through the tunnel underneath the House and the 
Senate. Because again, I'm just sensitive to the constituents 
that huff and puff and pant into my office and they constantly 
say, ``Senator, I wish we could have been here but we were in 
line.'' Or, ``Senator, I wish we could have been here but we 
had to go a circuitous route to get to you.'' I just want to be 
very sensitive to them and of course, the people we serve.
    Let me just see if there are other questions and I'll turn 
it back to Senator Allard.

    <greek-l>SAACPB deg.COORDINATING WITH SURROUNDING LOCAL POLICE 
                              DEPARTMENTS

    Before I was the Chair of this subcommittee, I chaired the 
D.C. Subcommittee and also was Chair of the Emerging Threats 
Subcommittee on Armed Services and we did a lot of work before 
and after 9/11 to make sure that the Capitol complex and our 
security was coordinated with the D.C. Police, with the 
Maryland law enforcement and Virginia law enforcement in the 
event that there is a serious situation as did occur on 9/11. 
Evacuating hundreds of thousands of people from this core out 
takes a lot of cooperation in terms of the Metro, in terms of 
which way the highways are moving, et cetera. Could you all 
both just give me a brief update, about the ongoing efforts to 
be cooperative with the D.C. Police and the Maryland and 
Virginia police operations? Mr. Gainer, maybe we could start 
with you and then I'll talk with the Chief.
    Mr. Gainer. Thank you, Madam Chair. We certainly did learn 
our lessons after these incidents. While I was the Chief, one 
of the many things that was done was station a Metropolitan 
Police officer in the command center, in addition to the ring 
down phones and the constant communications. But that was the 
perspective 1 year ago, so Phil can tell us where we are today.
    Chief Morse. We're also--the Chiefs of Police in this area 
meet routinely once a month and also we have a telephone 
conferencing that we do, which has developed over time. We have 
those conferences when there is a threat that each one of us 
needs to know about. So there is a lot of coordination with the 
local law enforcement.
    One of the things, as you bring to our attention, is not 
only in the municipal area but also Maryland and Virginia. Our 
radio system, as far as communication is concerned--in an 
incident where we would have to evacuate the city or Capitol 
Hill, in a critical incident where we need the support of other 
law enforcement agencies, our radio system does not allow us 
the interoperability with them.
    Many of the State, local, and Federal law enforcement 
agencies have interoperable radio systems so one of my 
priorities is to modernize our radio system so that we can meet 
that expectation, especially in a critical incident, where we 
can coordinate our efforts.
    Senator Landrieu. Well, let me really strongly encourage 
you, having survived through Hurricanes Katrina and Rita and 
the total collapse of the communications system that existed 
during those natural disasters. Then, of course, we all went 
through the 9/11 experience here--that that is one of the 
absolute fundamental critical tools necessary to manage people 
fleeing in an orderly way that doesn't cause panic and more 
death and injury, et cetera.
    So I really want to encourage you all and I can say that 
Senator Allard and I will work with you every step of the way 
to try to press this interoperability. There are some extra 
monies being appropriated, as you know, in the other budgets. I 
know that there are serious needs around the country but I 
think we could successfully argue that starting at the Capitol 
for interoperability would be the highest priority for the 
Nation and for this region, to become as interoperable as 
possible as soon as possible. So those are the questions that I 
have. I'll turn it over to Senator Allard.

                 <greek-l>CPB deg.STAFFING AND OVERTIME

    Senator Allard. Thank you, Madam Chair. There are two other 
issue areas I want to cover, one on staffing and overtime and 
the other issue has to do with the Library of Congress. We'd 
like to get that resolved as quickly as possible.
    On staffing and overtime, I have been through the Capitol 
at various odd hours, on the weekend, sometimes in the middle 
of the night, at around 10 o'clock to 1 o'clock in the morning, 
I've been through the Capitol early in the morning on weekdays 
and sometimes late at night. I've been pretty pleased with the 
level of security.
    At one point in time, particularly right after 9/11, I 
think perhaps we had too many people standing around after 
hours but I understood the urgency of the situation at that 
time. So I think everything has generally operated pretty 
efficiently from what I can tell. I know that there are some 
entrances that we used to keep open almost all the time. We've 
closed those down.
    As a Member of Congress, I haven't found it particularly 
inconvenient. I think you've used good judgment in that, as 
long as we can figure out which gate to come in, we're okay. I 
look in the budget and I see overtime would increase 15 percent 
over last year's level and I'm trying to understand what's 
happening here that we have to increase overtime so much? What 
is driving that?
    Chief Morse. Well, the fiscal year 2008 overtime estimates 
were based on the last 2 fiscal years and what we actually 
spent. But with that comes some additions in 2008 that we just 
started experiencing here in 2007, are demonstrations. We have 
a convention in 2008 that will drive some overtime but what we 
are doing to ensure that we're getting the best bang for buck 
is we've educated our managers and we've made it a performance 
measure that they meet expectations that the Assistant Chief 
has set for them as far as internal controls and managing their 
overtime.
    The second part of that is the manpower study. We have to 
ensure that we use our people in the most efficient and 
effective manner and with this manpower study, they are looking 
at every single process and everything that we do as far as 
manpower is concerned. So we hope to be able to reduce that and 
find a balance here in the near future.
    But for 2008, our concerns are for the number of 
demonstrations, the increased workload of Congress and the 
conventions that are upcoming in 2008.
    Senator Allard. Is the Capitol Visitor Center driving that 
need for additional staff or have you already compensated for 
that?
    Chief Morse. We've already compensated for that in our 
initial estimates but as operations change, designs change, 
brings more people to do the job and if you don't get the 
people, then it drives overtime.
    Senator Allard. I'm not entirely satisfied with your 
response, particularly in light of the fact that we've already 
compensated for the CVC. Maybe we can sit down and go over 
that, have a meeting and see what you're looking at.
    Chief Morse. Sure.

           <greek-l>CPB deg.LIBRARY OF CONGRESS POLICE MERGER

    Senator Allard. On the Library of Congress, Dr. Billington 
has expressed concerns that the Library is not getting their 
vacancies filled. There are some 22 vacancies over there, 
apparently. We've been pushing to merge the Library of Congress 
security with the Capitol Police so that everybody is operating 
with the same standards and the same level of protection. Dr. 
Billington has expressed some concern about those vacancies. 
What's going on there?
    Chief Morse. Well, in regards to personnel, we met with the 
CAO of the Library approximately 2 weeks ago to come to a 
number because there have been many numbers out there and 17 
was the number.
    Senator Allard. So there are 17 vacancies?
    Chief Morse. That's correct. We have a recruit class, which 
is in field training right now and will complete that April 22 
and April 23, we will be sending 10 officers to the Library of 
Congress. That number was derived by looking at security 
campus-wide because we have not only a responsibility at the 
Library of Congress, we have a responsibility campus-wide. We 
have to ensure that load leveling was equal there and that we 
weren't sacrificing any security or manpower here.
    Senator Allard. Particularly with that tunnel that we're 
putting in there.
    Chief Morse. Yes. So there are some issues that have to be 
resolved. We're certainly trying to execute the will of 
Congress here. We've identified issues and we have put our 
recommendations into a decision paper for the Capitol Police 
Board to help us facilitate.
    Mr. Gainer. May I add, just recently, the Police Department 
did give the Board recommendations and the onus is on the 
Police Board now to take some action. We'll move on it very 
quickly. We have a series of things that we think needs to be 
done in order to expedite the closure of this long-term issue.
    Senator Allard. The Congress has spoken on this.
    Mr. Gainer. Yes, sir.
    Senator Allard. We want to have a unified security force 
and I think the sooner we can get this resolved, the better. 
I'd like to get it off our plate and I'm sure you'd like to get 
it off your plate.
    Mr. Gainer. Yes.
    Senator Allard. Now, do you see any major roadblocks in 
getting this finalized?
    Chief Morse. The Capitol Police support the merger in that 
we want to execute the will of Congress. So there will be 
challenges here. We've identified issues that need to be 
resolved. I don't think that they can't be resolved with people 
sitting down and discussing them but I think that they are 
critical and they need to be resolved to the satisfaction of 
Congress and certainly any liabilities to the Police 
Department, et cetera, have to be examined very closely.
    Senator Landrieu. If you don't mind, I may ask Senator 
Allard if he would, to facilitate that meeting. I intend to 
push on that legislation, to merge the Capitol Police with the 
Library of Congress Police. It was done last year but I don't 
think it passed completely through the process. So I think the 
Members of Congress feel like this is what we should do but we 
need to go ahead and try to bring that to closure this year and 
work out the details.

 <greek-l>SAA deg.UNITED STATES CAPITOL POLICE SALARY BUDGET INCREASES

    I have one more question and then I'm finished. I don't 
know if Senator Allard has anything else but I asked the staff 
to put in graphic form, the increase in the salaries of the 
Capitol Police and you can see, it's fairly dramatic when you 
look at it here. In 1998, the salary level looks to me on this 
graph to be about $70 million. Now we're up to $220 million in 
a relatively short period of time, from 1998 to 2007.
    Now, 9/11 happened here and the attack on the Capitol and 
we've had other incidents that are driving this. There has been 
an increase of the need for security in all of Washington, DC, 
so I'm sure that's been a factor in driving up salaries, et 
cetera.
    But Mr. Gainer, would you comment on your perspective of 
this increase and then Chief Morse, about how this is fairly 
significant? What are we starting our officers or what is our 
current salary range for them? And why or how would you justify 
this increase? I realize you all weren't in charge in all these 
years but as you can see, this salary for officers is from $70 
million to $220 million in just a few years.
    Mr. Gainer. If I may, I would like to address that as the 
one who was in charge over these past 5 years. To the extent 
that Chief Morse and his Deputy inherited a Department that is 
not perfect yet, I take responsibility. We tried to lay the 
foundation but the cracks in that foundation happened under my 
watch and I think Chief Morse and his Deputy will be better 
Chiefs, and I applaud them.
    But the ultimate accountability is mine. The numbers grew 
under my watch, with the work of the Congress because of the 
expanding mission requirement. The individual salaries have 
been driven because competition is unbelievably tough in this 
area between these multiple jurisdictions, to attract these 
individuals. So we have faired better than almost any police 
agency to hire highly qualified people. So that goes to the 
size of their salary, and, I think during the 4 years that I 
was there, we added nearly 400 officers for the different 
missions. It is mission driven. When we get back to that 
question, how do we secure it and keep it open and make it 
convenient for everybody, it is personnel driven.

<greek-l>SAA deg.COMPARISON OF UNITED STATES CAPITOL POLICE SALARIES TO 
                          LOCAL JURISDICTIONS

    Senator Landrieu. Well, could you just submit for the 
record and I don't know, Chief, if it would be better for you 
or for Mr. Gainer, to submit the regional salary levels. I'd 
just like to know. I think this subcommittee would like to 
know, what the State police in Virginia are making? What are 
the State police in Maryland making? What the local police 
officers here that you're competing with are making so we can 
review. I'm sure your Board does that but I personally would be 
interested in that information if you'd submit it to the 
subcommittee.
    Mr. Gainer. Yes, ma'am.
    [The information follows:]
  Comparison of Starting Salaries Between USCP and Local Jurisdictions
    The Department continues to be a model employer and a competitive 
leader in the law enforcement employment market when it comes to 
starting salaries for new recruit officers as well as pay at most 
levels. During the past year, the Office of Human Resources has worked 
with other Federal, state and local government entities in several 
compensation symposiums for market pay analysis. During these 
semiannual meetings, human resources personnel compare job titles and 
duties, entry-level and journey-level pay averages, and share 
information on recruiting trends and separation statistics. Many of 
these local entities are required from their governing authorities/
boards to obtain data, to the extent possible, from USCP when 
determining their pay recommendations. The entities that the Department 
routinely works with are Fairfax County, Loudoun County, Prince 
George's County, Metropolitan Police Department of Washington DC, 
Montgomery County, and others within the Washington DC Metropolitan 
area. The Office of Personnel Management lists the USCP in its 2004 
study of law enforcement officer (LEO) pay and benefits as having the 
highest starting salary of all Federal law enforcement entities. It is 
important to note that 2 Federal organizations, the Library of Congress 
and the U.S. Supreme Court are required in statute to follow USCP pay 
determinations and as such pay their law enforcement positions 
equivalently.
    In 2006, the USCP matched its entry level officer positions with 
those of other local law enforcement jurisdictions as positions that 
patrol assigned areas, enforce security and protection, assess threat 
environments, investigate a variety of criminal offenses involving 
crimes against property, participate in investigations of crimes 
against persons, etc. Positions at USCP require a high school degree or 
equivalent and completion of police recruit training. The data 
highlighted in the chart is the result of the Department's 
participation in local market survey analysis as administered by 
Fairfax County for 2006.

      SURVEY OF ENTRY LEVEL COMPENSATION FOR LOCAL LAW ENFORCEMENT IN THE WASHINGTON, DC METROPOLITAN AREA
----------------------------------------------------------------------------------------------------------------
                                                                                                         No. in
     Police Organization           Position Match 2006        Min        Mid        Max      Average     Survey
                                                                                              Actual      Pool
----------------------------------------------------------------------------------------------------------------
Alexandria...................  Police Officer I..........       43.0       57.1       71.1       45.1         89
Arlington....................  Police Officer I..........       44.6       59.2       73.8       46.8         58
Capitol Police...............  Private-Priv w/Training-         48.4       67.8       87.1       51.0         99
                                PFC.
District of Columbia.........  Police Recruit............       46.4       57.5       68.5  .........  .........
Loudoun......................  Deputy I (Field/Civil            40.3       52.4       64.5       47.7         54
                                Process/Community
                                Policing).
Montgomery...................  Police Officer I..........       41.6       55.7       69.7       44.5        115
Prince George's..............  Police Officer............       44.1       52.6       61.1       46.0        442
Prince William...............  Police Officer I..........       39.3       51.1       62.9       41.4         80
Fairfax County...............  O-17-2....................       44.4       58.4       72.4       52.1        253
----------------------------------------------------------------------------------------------------------------

    USCP competes in various labor markets with state and local 
governments for individuals with law enforcement skills. As a result of 
the September 2001 terrorist attacks, the Department and its 
stakeholders were most concerned about its ability to recruit and 
retain high-quality personnel for its LEO positions. Central to those 
concerns was the level of pay the Department was compensating its 
officers as compared to those of other Federal LEO positions, as well 
as state and local government positions. The Department was provided 
with authority and funding to increase the base pay structure of all 
law enforcement positions sufficient to recruit a significant number of 
new officers, as well as retain more seasoned officers to ensure 
institutional knowledge and experience needed to address Congressional 
concerns for an enhanced security and protection environment. The 
decision to increase the USCP pay structure placed USCP on average 4 
percent above the market in which it competes.
    An important factor to consider in comparing the compensation of 
USCP law enforcement personnel with state and local entities is the 
extent to which other compensation factors into total compensation. For 
example, Montgomery County, as others, compensates new officers for 
Assignment Pay Differentials such as Hazardous Materials, Language Pay, 
etc. While USCP received authority and has implemented its Specialty 
Pay Program, it is typically not for new recruit officers.
    In addition, USCP law enforcement positions that earn compensation 
for overtime work do so without the earnings being contributed to their 
retirement or 401K savings programs. Depending on authorities for other 
Federal, state and local government organizations, individuals working 
overtime can receive credit for retirement and 401K benefits. One 
significant difference in the payment of premium pay (non base pay) for 
USCP personnel as compared to state and local government is the 
limitation on the accumulation of differentials. USCP personnel are 
capped on the total amount of premium pay differentials earned on a bi-
weekly basis. While the USCP has the highest biweekly limitation on 
premium pay for its non-exempt sworn workforce compared to Federal 
organizations, state and local governments typically do not limit the 
accumulation of differential pay, just the limitation on aggregate pay.
    Much work has been accomplished in reviewing compensation in the 
Federal and state and local government law enforcement community. Most 
recently, in August 2005, the Congressional Budget Office published its 
report, ``Comparing the Pay of Federal and Nonfederal Law Enforcement 
Officers,'' which describes the competitive environment for recruiting 
and retaining law enforcement officers. USCP has used this report to 
remain pay competitive in terms of looking at the total compensation 
package. Statistically, the critical period for USCP to achieve a 
return on recruiting and training investment for new recruit officers 
is after the first 3 years. The progression of pay during the first 3-5 
years is critical to the retention of a deployable workforce. Upon 
promotion from Private, Private with Training and Private First Class 
(typically after 30 months), individuals are limited in seeking other 
employment as their salary in the grade is significantly higher than 
most Federal and state and local governments and to leave USCP service 
would typically result in a decrease in pay and law enforcement service 
credit. Service under USCP as a law enforcement officer is not 
creditable service under other Federal LEO retirement systems. In order 
for an LEO to leave USCP for other Federal service, he/she would have 
to start over their retirement service credit.
    USCP recognizes that other law enforcement entities deploy 
attractive recruitment strategies designed to capture high quality and 
Federally trained (at the Federal Law Enforcement Training Center) 
individuals. The Department has not experienced a significant increase 
in attrition such that it would require the department to offer 
recruitment bonuses. While USCP has had several individuals leave USCP 
service for other Federal, state and local government employment; their 
responses on exit surveys indicate that compensation was not a 
significant factor in their decision to leave the Department, but 
rather individuals indicated their decisions to leave were for personal 
and/or professional reasons.
    Although USCP starting salary and benefits are competitive with 
local agencies, the potential for ``moonlighting'' (outside security 
officer employment) and other benefits offered by local law enforcement 
agencies might also factor into the equation and equalize the 
difference in compensation. Educational benefits and recruiting/
retention bonuses offered by local, state and some Federal law 
enforcement agencies, may also prove to be a better draw for LEOs than 
the initial higher salary rate. Also, the USCP may not be as 
competitive with uniformed services in other federal law enforcement 
agencies. The Department competes strongly with the Transportation 
Security Administration and U.S. Secret Service under the Department of 
Homeland Security that offer a career ladder for higher paying 
investigative and LEO positions. In some circumstances, these agencies 
are able to offer opportunities for advancement and relocation. This 
career potential may outweigh the higher beginning salary for recruits 
who are planning their careers more long term.
    Another factor to consider in measuring salary competitiveness in 
the Federal arena is that many Federal criminal investigators and other 
LEOs regularly receive a 25 percent supplement for overtime work--
either administratively uncontrollable overtime (AUO) pay or law 
enforcement availability pay. While this supplement is a stable 
addition to salary, it is appropriately not included in salary 
comparisons, which compare non-overtime salary rates. Providing a 
virtually guaranteed 25 percent supplement gives the Federal Government 
a competitive advantage over USCP who does not guarantee such an 
overtime supplement.
    USCP believes most job seekers give great weight to the total 
regular pay they would receive in a job, since it is that total pay 
that determines their standard of living. While the value of AUO pay 
and availability pay may not be as great as the overtime rates paid by 
non-Federal employers on an hourly basis, those supplements are highly 
valued as stable additions to salary. Furthermore, since the AUO pay 
and availability pay received by non-USCP LEOs is creditable as basic 
pay in determining retirement and certain other benefits, the value of 
these payments is even greater. For example, an availability pay 
recipient will receive a defined benefit pension that is 25 percent 
higher than another employee at the same salary level. Also, Thrift 
Savings Plan holdings will be proportionally larger as an availability 
pay recipient is entitled to a larger Government match than another 
employee at the same salary level.
    When establishing recruiting and compensation strategies for the 
Department, USCP strives to remain competitive given the unique 
security and protection environment our employees serve. It is 
important that our recruiting and pay systems reflect the significant 
mission and objectives that are fundamental to the principles of the 
Department.

    Senator Landrieu. Senator Allard?
    Senator Allard. Well, just one additional comment in that 
regard. I've been told that we're the highest paid police force 
in the country. I'd like to look at those figures, in 
comparison to other police forces.
    Mr. Gainer. Yes, sir. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Landrieu. Any additional questions from Members 
will be submitted to you for response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Wayne Allard

                             SWORN STAFFING

    Question. USCP's Manpower Management Task Force conducted an 
internal manpower study. The goal of that study was to develop a 
staffing plan for efficiently managing and allocating resources based 
on threat. This study was completed a couple of months ago.
    How is USCP using the results that study?
    To what extent is the contractor using the results of the internal 
manpower study?
    What recommendations were made in the study regarding allocating 
resources based on the threat?
    Does USCP plan to implement the recommendations from this study? If 
not, what is USCP's reason(s) for not implementing them?
    USCP hired a contractor (Enlightened Leadership Solutions) to 
conduct a manpower study of USCP's sworn staff. How will USCP ensure 
that it will receive useful results from this study, and how will this 
study enable USCP to develop and implement the congressionally mandated 
strategic workforce plan?
    Answer. A high level review of the task force report has been 
accomplished by the USCP and appropriate recommendations provided to 
ELS for consideration in the overall manpower study. Other 
recommendations have been implemented based on our threat assessment 
and operational needs. The Department is working, with close support 
from ELS, to ensure that the broader recommendations of the task force 
report are considered. Senior management receives regular updates from 
ELS and provides course corrections as necessary to ensure useful 
results are obtained from the study. ELS will deliver a staffing 
formula for sworn officers based on our current and proposed concept of 
operations, which is based on the threat matrix. In effect, the USCP 
implements a force development process that utilizes the threat 
assessment to define the needs of the Concept of Operations in order to 
make resource decisions. The ELS study will also help to provide a 
methodology for the USCP to make future manpower requirement decisions 
and lend credible foundation for its manpower levels. This study 
addresses the guidance we have received in our close working 
relationship with GAO. This process will also lead to the eventual 
development of the strategic workforce plan, as mandated by Congress. 
This process will also lead to the development of future training 
plans, technology investment plans and other operational and support 
decisions.

                          FINANCIAL MANAGEMENT

    Question. Will USCP be able to prepare a fiscal year 2006 balance 
sheet with complete and accurate asset and inventory balances that will 
pass an audit?
    Answer. For fiscal year 2006, USCP will be generating a SBR, and 
for the first time, a draft Balance Sheet utilizing Generally Accepted 
Accounting Principles applicable to federal entities. USCP will 
generate a full set of financial statements for fiscal year 2007, with 
the completion of the inventory process.
    The USCP had planned to prepare a full-set of draft financial 
statements at the conclusion of fiscal year 2006; however the 
completion of the USCP inventory, which was required to validate asset 
balances, was delayed to April 2007. The USCP has prepared a draft 
Balance Sheet for 2006, but does not expect that the independent 
auditor will be able to validate all asset balances and would not 
expect a ``clean'' opinion on the Balance Sheet for fiscal year 2006.
    Question. When was the physical inventory count originally 
scheduled to be completed? How far behind schedule is this effort? What 
is the current estimated completion date? Will the inventory count be 
completed in time for the data to be included in the financial 
statements for fiscal year 2006? If not, why?
    Answer. In the statement of work, the physical inventory count, to 
include the actual count of assets owned by USCP and the valuation of 
these assets, had a projected completion date by March 31, 2007. Since 
that time, the contractor requested a thirty-day extension at no 
additional cost to ensure that they have adequate time to provide 
accurate data.
    Currently, this effort is on schedule (including the thirty-day 
extension) and baring any unforeseen circumstances, will be completed 
by April 30, 2007. Once the contractor has presented all data, there 
are additional steps needed to complete the reconciliation. These steps 
include the review and acceptance, by the independent auditors, of the 
valuation of the USCP assets, researching and identifying the 
documentation that supports the valuation of each asset and final 
reconciliation with the financial statements presented by the Office of 
Financial Management. The current estimated completion date for the 
physical inventory count, to include the valuation of all assets done 
by the contractor, is estimated to be completed on April 30, 2007. This 
does not include the review and acceptance of the data by the 
independent auditors.
    The inventory count will not be completed in time to be included in 
the fiscal year 2006 financial statements. At the conclusion of the 
count, USCP estimates approximately three million assets and 
consumables that will be identified as a result of the count. Once that 
information has been reviewed and approved, the formal validation and 
documentation of the inventory will be conducted. This work will not be 
completed in time for the fiscal year 2006 audit.
    Question. What issues has USCP encountered as a result of efforts 
to complete a first-time agencywide inventory effort? Was the agency 
prepared to take on such a monumental task at the same time while 
implementing other agency wide initiatives (internal control program, 
implementation of new asset management system, etc.)
    Answer. We have discovered through the inventory process that USCP 
has a wide array of assets distributed throughout multiple locations. 
Locating and identifying ownership of these assets has been a much 
bigger challenge than originally anticipated.
    The process was unexpectedly slowed by having to coordinate with 
the inventory contractor, the independent auditors and USCP property 
custodians within each division to ensure that all assets were being 
properly identified and captured.
    Many of these assets are constantly in use. Although legacy systems 
still remain to keep track of assets until collected data is uploaded 
into the Maximo database, there still remains a challenge. 
Specifically, that the movement of assets could possibly be overlooked; 
thus, compromising the effort of the count. Until the final transition, 
this will continue to be followed closely to mitigate issues.
    Completion of the physical inventory is an integral step in 
producing a Department balance sheet, as recommended by Congress and 
GAO. Completion of a balance sheet is a priority for the USCP and is 
part of the Department's fiscal year 2007 business plan. In addition, 
Senate Report 109-267 directed the USCP to prepare a plan to move to a 
full-scope financial audit for fiscal year 2007. Although the language 
was not included in the final fiscal year 2007 appropriation for the 
USCP, the Department took the direction very seriously. Considering the 
time required to complete such an inventory, it was prudent to begin 
procuring contract support for this task in fiscal year 2006. The 
contract was awarded on September 30, 2006. The inventory project began 
on Monday, October 30, 2006, and proceeded forward as scheduled. As of 
Friday, March 16, 2007, the inventory project has completed 75 percent 
of USCP sites, with all data loaded into the asset management system.
    Once the contractor has presented all data, there are additional 
steps needed to complete the reconciliation. These steps include the 
review and acceptance, by the independent auditors, of the valuation of 
the USCP assets, researching and identifying documentation that 
supports the valuation of each asset and final reconciliation with the 
information maintained by the Office of Financial Management.
    This project represents a cross-cutting working coordination 
between Property and Asset Management Division, the Office of 
Logistics, the Office of Financial Management, the Office of 
Information Systems, the Office of the Inspector General, and the 
auditing firm of Cotton and Company. We project that, without any 
unforeseen issues in the future, this project will be completed to the 
fulfillment of the Senate direction.
    Question. What are your plans to assess the effectiveness and 
validity of Momentum's processing within the unique environment at 
USCP? For instance, whether the electronic controls in place are 
performing as intended and ensuring the operating effectiveness of the 
USCP system and internal control environment?
    Answer. The external auditors have not yet completed their 
assessment of Momentum automated controls to provide assurance the 
system is working efficiently and effectively. This assurance is 
expected with the completion of the financial statement audit that is 
currently on-going.
    Per the GAO report, the auditors acknowledged that the controls 
might be better with the implementation of Momentum.
    The USCP has also performed several Momentum reviews as part of its 
internal control Program. These reviews provide assurance that the 
system is working as designed and that proper segregation of duties and 
compensating controls exist. GAO did not review these internal reviews.
    The USCP will continue to work with GAO and the auditors to ensure 
Momentum operates as efficiently as possible.
    USCP will continue to make Momentum controls a top priority as the 
Department moves forward with its Internal Control Program.
    Question. We understand that you recently conducted a user 
satisfaction survey (customer survey). What are some of the actual 
concerns highlighted by Momentum users? Going forward, how do you plan 
to address those concerns?
    Answer. The USCP implemented the Momentum financial management 
system in a 12-month period, with few technical implementation issues.
    However, with any significant change in business processes, change 
management and effective communications with users of the system are 
critical.
    Prior to the implementation of Momentum, the USCP operated under a 
paper-intensive workflow process that required no system input from 
most of USCP's administrative staff.
    Momentum introduced cutting-edge technology that required users, 
who had never interfaced with a financial management system to enter 
data, scan documents and provide approval paths for transactions, as 
well as, verify funds availability within an automated system. This 
proved to be the biggest challenge to the system implementation.
    In order to address these issues, the USCP made a significant 
investment in training to ensure all users had/have the skill sets 
required to operate this new technology. We offered a cadre of 21 
courses to all users of the system covering the basics of data entry 
and approval processes prior to implementation, refresher courses after 
implementation as well as segments on procurement policy and processes, 
a 2 day course on appropriations law, and a 2 day course on internal 
controls to ensure that staff had the necessary tools to process 
transactions appropriately in the system and within the confines of our 
appropriation and applicable law.
    Momentum provides customer access to real-time enhanced reporting 
and access to data (including real-time budget updates) for users at 
all levels of the organization via online queries, reporting and 
accessibility to data.
    Momentum supports such internal control principles as segregation 
of duties and delegation of authority. USCP has strengthened internal 
controls with the use of automated workflow and on-line approvals. This 
best business practice has dramatically improved controls, has enabled 
better management and tracking of our procurement processes and allowed 
for better requisition tracking and has significantly reduced the 
paper-intensive processes of the past while improving efficiency.
    USCP has now been operating successfully with Momentum for over 17 
months. This is the same software utilized at over 80 federal agencies, 
including several legislative branch agencies.
    Inherent with any commercial off-the-shelf package, software issues 
arise. USCP prioritizes and tracks open issues with the software owner 
to ensure issues are fixed timely.
    Recent surveys of Momentum users completed by USCP indicate that 
the vast majority of system users indicate that they understand and are 
able to complete their financial management responsibilities with the 
Momentum system.
    Question. USCP developed a 2-year plan to implement a first-ever 
agencywide internal control program. Is USCP on target with its phased-
approach? What are some of the expected and unexpected issues that USCP 
has encountered?
    Answer. The Department is on target. According to GAO, USCP has 
taken some strong first steps. These steps include providing training 
to a significant number of leaders and managers, developing a Control 
Environment Assessment, developing a plan/schedule for conducting 
assessments, engaging an Internal Control Working Group and Review 
Board in an on-going evaluation of how to improve the process--linking 
it to other management improvement efforts, and integrating the work 
into the Business Planning System. This year, we will be spreading the 
internal controls program throughout the Department, and one of the 
most important ways we are facilitating that is by incorporating 
internal controls analysis into the work of the Manpower Study Project. 
In addition, the USCP participates in the Legislative Branch Financial 
Managers Council internal controls group to learn and share internal 
control methodologies with other Legislative Branch agencies.
    Following GAO's lead, we used an organizational development 
approach to implement an internal controls program. This approach 
(using team leadership, integrating this program with an ongoing 
management improvement program) helped us overcome the expected issues 
related to building ownership, commitment, and changing the 
organizational culture to see internal controls as a tool for 
application, daily.
    Accomplishing such a major change in business process without the 
funding normally attached for maximizing return on investment was an 
unexpected issue. The risk for sub-optimizing such a key investment 
will be greater in the out-years and so we will ensure that the ELS 
Manpower Study accurately captures the degree of time and expertise 
required to sustain the progress in decreasing vulnerabilities.

                          SUBCOMMITTEE RECESS

    Senator Landrieu. If there are no further questions, this 
subcommittee will stand in recess until April 13 when we'll 
meet to take testimony on the fiscal year 2008 budget request 
for the Secretary of the Senate and the Library of Congress.
    [Whereupon, at 11:22 a.m., Friday, March 30, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
